No.

In the Supreme Court of the United States
________________________
ALEXANDER BALBUENA, PETITIONER.
v.
BRIAN CATES, ACTING WARDEN, RESPONDENT.
_____________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

________________________
PETITION FOR A WRIT OF CERTIORARI
________________________
DAVID A. O’NEIL
DEBEVOISE & PLIMPTON LLP
801 Pennsylvania Ave. N.W.
Washington, D.C. 20004
(202) 383-8000
daoneil@debevoise.com
MATTHEW SPECHT
DEBEVOISE & PLIMPTON LLP
919 Third Avenue
New York, NY 10022

SCOTT A. SUGARMAN
Counsel of Record
SUGARMAN & CANNON
737 Tehama Street, No. 3
San Francisco, CA 94103
(415) 362-6252
scott@sugarmanandcannon.com

i

QUESTION PRESENTED
Whether a district court filing that seeks to
amend a habeas petition pending on appeal constitutes a “second or successive” petition under the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”).

ii

PARTIES TO THE PROCEEDINGS
All parties appear in the caption of the case on
the cover page.

iii

RELATED PROCEEDINGS
Balbuena v. Sullivan, Nos. 12-16414, 18-15432 (9th
Cir.) (order granting certificate of appealability
issued May 23, 2013; order staying appellate proceedings and remanding issued December 30,
2013; opinion issued August 17, 2020; amended
opinion and order denying rehearing en banc issued November 17, 2020; mandate issued November 25, 2020).
Balbuena v. Davey, No. 11-cv-00228-RS (PR) (N.D.
Cal.) (order denying initial habeas petition issued
May 25, 2012; order dismissing subsequent habeas petition issued February 5, 2018).
In re Balbuena, No. A138534, (Cal. Ct. App.) (order
denying habeas petition issued July 26, 2016).
People v. Balbuena, No. A122043, (Cal. Ct. App.) (order affirming conviction and modifying sentence
issued May 5, 2010).

iv

TABLE OF CONTENTS
Page
Question Presented ..................................................... i
Table of Authorities....................................................vi
Opinions Below ............................................................1
Jurisdiction ..................................................................1
Statutory Provisions Involved ....................................1
Introduction .................................................................2
Statement ....................................................................4
Reasons for Granting the Writ ................................. 12
A. The Question Presented Implicates an Intractable, Acknowledged Circuit Split That
Only This Court Can Resolve. ............................. 13
1. Five Courts of Appeals Treat a Filing
Seeking to Amend a Habeas Petition
Pending on Appeal as a “Second or
Successive” Petition. ................................. 13
2. Two Courts of Appeals Have Held
That a Filing Seeking to Amend a Petition Pending on Appeal Is Not a
“Second or Successive” Petition. ............... 16
3. The Issue Is Important and the Circuit Split Will Not Resolve Without a
Decision From This Court. ........................ 21
B. The Decision Below Is Incorrect. ......................... 23
C. This Case Presents an Ideal Vehicle. .................. 33
Conclusion ................................................................. 35
Appendix A: Amended Ninth Circuit Opinion ........ 1a
Appendix B: District Court Order ......................... 53a

v

Appendix C: Ninth Circuit Order .......................... 61a
Appendix D: Ninth Circuit Order .......................... 63a
Appendix E: District Court Order ......................... 66a

vi
TABLE OF AUTHORITIES
CASES
Allen v. Hardy, 478 U.S. 255 (1986) ...................... 27
Amodeo v. United States, 743 F. App’x 381
(11th Cir. 2018) ........................................... 20, 21
Banister v. Davis,
140 S. Ct. 1698 (2020) ................................passim
Beaty v. Schriro, 554 F.3d 780 (9th Cir. 2009) ...... 11
Boumediene v. Bush, 553 U.S. 723 (2008) ............... 5
Bradley v. School Bd. of City of Richmond, 416
U.S. 696 (1974) .................................................. 27
Carey v. Saffold, 536 U.S. 214 (2002) .................... 27
Ching v. United States, 298 F.3d 174 (2d Cir.
2002) ...........................................................passim
Clark v. United States, 764 F.3d 653 (6th Cir.
2014) .................................................................. 15
Clay v. United States, 537 U.S. 522 (2003) ........... 26
Douglas v. Workman, 560 F.3d 1156 (10th Cir.
2009) .................................................................. 14
Felker v. Turpin, 518 U.S. 651 (1996) ................. 5, 8
Floyd v. Kirkpatrick, No. 17-451, 2017 WL
3629902 (2d Cir. Apr. 21, 2017)........................ 18

vii
Ford v. Wainwright, 477 U.S. 399 (1986) ........ 24, 25
Fuller v. United States, 815 F.3d 112 (2d Cir.
2016) .................................................................. 22
Garcia v. Superintendent of Great Meadow
Corr. Facility, 841 F.3d 581 (2d Cir. 2016) 21, 22
Gonzalez v. Crosby,
545 U.S. 524 (2005) .............................. 21, 31, 32
Goodrum v. Busby, 824 F.3d 1188 (9th Cir.
2016) ........................................................ 3, 23, 30
Grullon v. Ashcroft, 374 F.3d 137 (2d Cir.
2004) .................................................................. 18
In re Cummings, No. 17-12949 (11th Cir. July
12, 2017) ............................................................ 21
Jimenez v. Quarterman, 555 U.S. 113 (2009) ....... 26
Johnson v. United States, 196 F.3d 802 (7th
Cir. 1999) ........................................................... 28
Littlejohn v. Artuz,
271 F.3d 360 (2d Cir. 2001) .............. 2, 23, 24, 32
Magwood v. Patterson, 561 U.S. 320 (2010) ........ 5, 8
Mayle v. Felix, 545 U.S. 644 (2005) ....................... 29
McCleskey v. Zant, 499 U.S. 467 (1991) .................. 5
Miller v. French, 530 U.S. 327 (2000) .................... 27

viii
Miller-El v. Cockrell, 537 U.S. 322 (2003) ............. 22
Miranda v. Arizona,
384 U.S. 436 (1966) ........................................... 10
Moreland v. Robinson, 813 F.3d 315 (6th Cir.
2016) .................................................................. 15
Muniz v. United States, 236 F.3d 122 (2d Cir.
2001) .................................................................... 5
Ochoa v. Sirmons, 485 F.3d 538 (10th Cir.
2007) ............................................................ 14, 21
Panetti v. Quarterman,
551 U.S. 930 (2007) ....................................passim
Patchak v. Zinke, 138 S. Ct. 897 (2018)................. 27
Phillips v. United States, 668 F.3d 433 (7th
Cir. 2012) ....................................................passim
Phillips v. United States, Nos. 10-2154 & 111498 (7th Cir. Feb. 21, 2012) ............................ 21
Plaut v. Spendthrift Farm, Inc., 514 U.S. 211
(1995) ................................................................. 28
Post v. Bradshaw, 422 F.3d 419 (6th Cir. 2005) ... 15
Rhines v. Weber, 544 U.S. 269 (2005) .................... 31
Rose v. Lundy, 455 U.S. 509 (1982) ......................... 6
Salinger v. Loisel, 265 U.S. 224 (1924) ................ 5, 6

ix
Sanders v. United States, 373 U.S. 1 (1963) ... 5, 6, 7
Slack v. McDaniel,
529 U.S. 473 (2000) ........................... 5, 12, 24, 25
Stewart v. Martinez-Villareal, 523 U.S. 637
(1998) ..................................................... 12, 24, 25
Teague v. Lane, 489 U.S. 288, 295 (1989) ....... 26, 27
United States v. Santarelli, 929 F.3d 95 (3d
Cir. 2019) ....................................................passim
United States v. Sellner, 773 F.3d 927 (8th Cir.
2014) ............................................................ 23, 24
United States v. Terrell, 141 F. App’x 849
(11th Cir. 2005) ................................................. 21
Whab v. United States, 408 F.3d 116 (2d Cir.
2005) ...........................................................passim
Williams v. Norris, 461 F.3d 999 (8th Cir.
2006) ............................................................ 13, 14
Williams v. Norris, No. 04-3485 (8th Cir. Jan.
11, 2007) ............................................................ 21
Wong Doo v. United States, 265 U.S. 239
(1924) ................................................................... 6
Woods v. Carey, 525 F.3d 886 (9th Cir. 2008) ......... 3
STATUTES
28 U.S.C. § 1254(1) ................................................... 1

x
28 U.S.C. § 1291 ....................................................... 3
28 U.S.C. § 2244(b) ..........................................passim
28 U.S.C. § 2244(b)(3)(A) ....................................... 11
OTHER AUTHORITIES
Habeas Corpus Reform: Hearings Before the
S. Comm. on the Judiciary, S. Hrg. 1011253, 101st Cong. 7–30 (1991)........................ 6, 7
Federal Habeas Corpus Reform: Eliminating
Prisoners’ Abuse of the Judicial Process:
Hearing on S. 623 Before the S. Comm. on
the Judiciary, 104th Cong. (1995) ................ 7, 23
2 Randy Hertz & James S. Liebman, Federal
Habeas Corpus Practice and Procedure §
28.3[b] (7th ed. 2016) .......................................... 3

1
OPINIONS BELOW
The amended decision of the court of appeals (Pet.
App. 1a) is reported at 980 F.3d 619 (9th Cir. 2020).
The decision of the district court (Pet. App. 66a) is
unreported.
JURISDICTION
The decision of the court of appeals was entered
on August 17, 2020 and amended on November 17,
2020. The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
As amended by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C.
§ 2244(b) states in relevant part:
(b)(1) A claim presented in a second or successive
habeas corpus application under section 2254
that was presented in a prior application shall be
dismissed.
(2) A claim presented in a second or successive
habeas corpus application under section 2254
that was not presented in a prior application shall
be dismissed unless—
(A) the applicant shows that the claim relies on
a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme Court, that was previously unavailable;
or

2
(B)(i) the factual predicate for the claim could
not have been discovered previously through
the exercise of due diligence; and
(ii) the facts underlying the claim, if proven
and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and
convincing evidence that, but for constitutional error, no reasonable factfinder would have
found the applicant guilty of the underlying offense.
INTRODUCTION
This case squarely presents an important issue of
statutory interpretation that, as the concurrence below emphasized, has sharply divided the federal
courts of appeals. Pet. App. 45a (Fletcher, J., concurring). Deepening a 5-2 split, the Ninth Circuit
held that any district court filing that seeks to
amend a habeas petition pending on appeal constitutes a “second or successive” petition under AEDPA.
Pet. App. 32a–33a, 44a. Two courts of appeals have
disagreed, correctly holding that while a petition is
pending on appeal, an attempt to amend is not a
“second or successive” petition. This Court should
“resolve the conflict in the circuits” and reject the
Ninth Circuit’s incorrect position. See Pet. App. 52a
(Fletcher, J., concurring).
AEDPA entitles every prisoner to “one full opportunity to seek collateral review.” See Ching v. United
States, 298 F.3d 174, 177 (2d Cir. 2002) (Sotomayor,
J.) (quoting Littlejohn v. Artuz, 271 F.3d 360, 363 (2d
Cir. 2001)). This Court has never decided when that
opportunity ends and the “second or successive” bar

3
is triggered. Consistent with the statutory scheme,
courts agree that a filing will not be deemed a “second or successive” petition unless, at a minimum, an
earlier-filed petition has been “finally adjudicated.”
See Goodrum v. Busby, 824 F.3d 1188, 1194 (9th Cir.
2016) (citing Woods v. Carey, 525 F.3d 886, 889 (9th
Cir. 2008); 2 Randy Hertz & James S. Liebman, Federal Habeas Corpus Practice and Procedure § 28.3[b],
at 1674–75 (7th ed. 2016)). The courts of appeals
disagree, however, about what constitutes a final
adjudication for these purposes.
Five circuits, including the Ninth Circuit in the
decision below, treat a district court’s merits denial
of a habeas petition as the “terminal point” and
therefore characterize as a “second or successive”
petition any effort to amend the underlying petition
while review of the denial is pending on appeal.
Phillips v. United States, 668 F.3d 433, 435 (7th Cir.
2012). Those courts, in effect, attach a significant
“unstated qualifier” to the “one full opportunity”
AEDPA affords: “‘one full opportunity to seek collateral review’ in the district court.” United States v.
Santarelli, 929 F.3d 95, 104 (3d Cir. 2019).
The Second and Third Circuits have reached the
opposite conclusion. Writing for a Second Circuit
panel, then-Judge Sotomayor explained that “[i]n the
AEDPA context, adjudication of an initial habeas
petition is not necessarily complete, such that a subsequent filing constitutes a ‘second or successive’ motion, simply because the district court rendered a
judgment that is ‘final’ within the meaning of 28
U.S.C. § 1291.” See Ching, 298 F.3d at 178. In the
Second Circuit, “so long as appellate proceedings following the district court’s dismissal of the initial petition remain pending when a subsequent petition is

4
filed, the subsequent petition does not come within
AEDPA’s gatekeeping provisions for ‘second or successive’ petitions.” Whab v. United States, 408 F.3d
116, 118 (2d Cir. 2005); Santarelli, 929 F.3d at 105
(“join[ing] the Second Circuit” and rejecting “a rule
that would construe as ‘second or successive’ all habeas petitions filed by a petitioner following a district
court’s denial of her habeas petition, regardless of
whether she has exhausted her appellate remedies”).
This conflict is current and highly unlikely to resolve on its own. Three circuits have recognized the
split, three circuits have denied petitions for rehearing en banc, and Judge Fletcher “wr[o]te separately”
in this case “to urge the Supreme Court to recognize
the circuit split” and “resolve the conflict in the circuits” by granting review here and rejecting the
Ninth Circuit’s incorrect position. See Pet. App. 52a
(Fletcher, J., concurring).
There are no threshold issues that would preclude this Court from reaching the question presented. And this case is an ideal vehicle: if an application to amend an underlying petition is not “second
or successive” under AEDPA when filed while review
of the petition is pending on appeal, the district court
can for the first time consider on the merits petitioner’s request to amend his petition. Certiorari is thus
warranted.
STATEMENT
1. Among other amendments to post-conviction
law and procedure, AEDPA imposed new procedural
rules for the filing of a “second or successive application” for federal post-conviction relief. See 28 U.S.C.
§ 2244(b). “The phrase ‘second or successive’” is a

5
“‘term of art,’ which ‘is not self-defining.’” Banister v.
Davis, 140 S. Ct. 1698, 1705 (2020) (quoting Slack v.
McDaniel, 529 U.S. 473, 486 (2000); Panetti v. Quarterman, 551 U.S. 930, 943 (2007)). This Court has
“often made clear that [the phrase] does not ‘simply
refer’ to all habeas filings made ‘second or successively in time’ following an initial application.” Id. (quoting Magwood v. Patterson, 561 U.S. 320, 332 (2010)).
Instead, the phrase “second or successive” “takes its
full meaning from [this Court’s] case law, including
decisions predating [AEDPA],” Panetti, 551 U.S. at
944, and from “historical habeas doctrine and practice,” Banister, 140 S. Ct. at 1705.
In particular, AEDPA’s “provisions, for the most
part, codified the longstanding abuse-of-the-writ doctrine.” See Boumediene v. Bush, 553 U.S. 723, 774
(2008) (citing Felker v. Turpin, 518 U.S. 651, 664
(1996); McCleskey v. Zant, 499 U.S. 467, 489 (1991)).
That doctrine arose in large part from the fact that,
“[a]t common law, the denial by a court or judge of an
application for habeas corpus was not res judicata.”
Sanders v. United States, 373 U.S. 1, 7–8 (1963) (citations omitted). Courts therefore developed principles to address the concern that some prisoners
would abuse the habeas process by filing “endless
applications for habeas relief without regard to the
disposition of any prior petitions.” Muniz v. United
States, 236 F.3d 122, 126 (2d Cir. 2001) (citing
McCleskey, 499 U.S. at 481).
In 1924, this Court set forth the guideposts federal courts were to use for successive petitions, instructing that although res judicata did not formally
apply to the denial of a first habeas petition, such a
denial might justify dismissal of a second. See Salinger v. Loisel, 265 U.S. 224, 231–32 (1924) (collect-

6
ing cases). This Court explained that “a prior refusal
to discharge on a like application” “may be considered, and even given controlling weight,” id. at 231,
as could a previous denial when the petitioner “had
[a] full opportunity to offer proof of [the grounds] at
the hearing on the first petition” but “reserve[d] the
proof . . . to support a later petition,” Wong Doo v.
United States, 265 U.S. 239, 241 (1924).
Congress in 1948 enacted the precursor to the
current version of 28 U.S.C. § 2244(b). Under that
provision, abuse of the writ was a defense that the
Government had “the burden . . . to plead”;
“[c]ontrolling weight” could be given “to denial of a
prior application” for habeas relief if it involved “the
same ground,” “was determined adversely to the applicant . . . on the merits,” and “the ends of justice
would not be served by reaching the merits of the
subsequent application.” Sanders, 373 U.S. at 15. If
“a prisoner deliberately [withheld]” a ground for relief, or “deliberately abandon[ed] one of his grounds,”
“he may be deemed to have waived his right to a
hearing” on those grounds. Id. at 18; see also Rose v.
Lundy, 455 U.S. 509, 521 (1982).
In the 1980s, these issues attracted further attention from this Court and from Congress. In 1988,
Chief Justice Rehnquist commissioned the Ad Hoc
Committee on Federal Habeas Corpus in Capital
Cases to examine “the necessity and desirability of
legislation directed toward avoiding delay and the
lack of finality” in capital cases, appointing retired
Justice Lewis F. Powell as Chair. Judicial Conference of the United States, Ad Hoc Comm. on Fed.
Habeas Corpus in Capital Cases, Comm. Report and
Proposal (Lewis F. Powell, Jr., Chairman, Aug. 23,
1989), reprinted in Habeas Corpus Reform: Hearings

7
Before the S. Comm. on the Judiciary, S. Hrg. 1011253, 101st Cong. 7-30 (1991), at 8. The resulting
report (the “Powell Report”) recommended limiting
the availability of habeas relief in cases of “unnecessary delay and repetition.” Id. at 9. The Powell Report’s proposal recommended that capital cases “be
subject to one complete and fair course of collateral
review in the state and federal system.” Id. at 13.
The Powell Report further recommended that relief
be unavailable after one entire “federal collateral
process concludes without relief being granted.” Id.
at 14. A state prisoner would be granted “one opportunity to have his claims reviewed carefully by the
federal courts.” Id. at 14–15. As Justice Powell explained, the Committee proposed to “enhance finality
by limiting the circumstances in which federal relief
may be sought after one full course of litigation up to
the Supreme Court.” Id. at 42.
The Powell Report was submitted to Congress in
1989, and its recommendations informed the development of AEDPA. Like the Powell Report, AEDPA
reflected a policy favoring both finality and the opportunity for one full opportunity for final adjudication of a habeas petitioner’s claims in the federal
courts. As then-Chairman of the Senate Judiciary
Committee Orrin Hatch explained, its provisions
would “guarantee prisoners one complete and fair
course of collateral review in the Federal System.”
Federal Habeas Corpus Reform: Eliminating Prisoners’ Abuse of the Judicial Process: Hearing on S. 623
Before the S. Comm. on the Judiciary, 104th Cong. 2,
3 (1995).
“AEDPA made the limits on entertaining second
or successive habeas applications more stringent
than before.” Banister, 140 S. Ct. at 1707. If an ap-

8
plication qualifies as “second or successive,” the petitioner may file it only after complying with a “‘gatekeeping’ mechanism” requiring leave of the court of
appeals based on a strict showing. See Felker, 518
U.S. at 657; 28 U.S.C. § 2244(b).
But “Congress did nothing to change . . . what
qualifies as a successive petition.” Banister, 140 S.
Ct. at 1707. That “threshold inquiry into whether an
application is ‘second or successive’” is distinct from
the question whether an application so designated
may proceed. Id. (quoting Magwood, 561 U.S. at
336–37). There is thus no “indication that Congress
meant to change the historical practice” reflected in
the “abuse of the writ doctrine,” the contours of
which continue to define whether a subsequent request for habeas relief qualifies as “second or successive” under AEDPA. Id.; see Felker, 518 U.S. at 664
(“The new restrictions on successive petitions constitute a modified res judicata rule, a restraint on what
is called in habeas corpus practice ‘abuse of the
writ.’”).
2. Petitioner was charged with first degree
murder, attempted murder, and street terrorism for
his participation in a gang-related shooting death.
Pet. App. 6a. At the time of the events, petitioner
was 15 years old and had no prior arrests. Pet. App.
8a, 18a–19a.
A crucial piece of evidence for the state was petitioner’s recorded confession. Pet. App. 19a. Police
officers arrested petitioner in his apartment, where
he was sleeping next to his pregnant girlfriend, at
2:00 AM the morning after the homicide. Pet. App.
19a. Detectives interviewed petitioner in a police
interrogation room after reading him a warning that
advised of his “right to an attorney prior to question-

9
ing” but omitted any reference to petitioner’s right to
counsel during the interrogation. Pet. App. 8a–9a.
Petitioner denied being at the scene of the shooting, but the detectives falsely told him that another
individual had placed him there. Pet. App. 9a. The
detectives warned petitioner to “be honest with us”
and referenced petitioner’s soon-to-be-born child.
Pet. App. 9a.
Petitioner eventually acknowledged being at the
scene but denied having a gun. Pet. App. 10a. The
detectives continued to pressure him, implying that
he would receive leniency if he spoke honestly and
showed “remorse.” Pet. App. 11a. After further
questioning, petitioner told detectives that another
person had given him a gun and instructed him to
join others in shooting at the car in which the victim
was seated. Pet. App. 11a.
3. Before trial, petitioner moved unsuccessfully
to suppress his confession as involuntary. The confession was introduced into evidence, a jury convicted, and the trial court sentenced petitioner to 82years-to-life imprisonment.
On direct appeal, the California Court of Appeals
concluded petitioner’s initial statements were voluntary. That court also determined, however, that the
detectives thereafter improperly offered petitioner
leniency if he made additional admissions. Concluding that petitioner had made critical admissions before detectives employed improper tactics, the court
deemed harmless the admission of petitioner’s
statements made after the officers’ coercive comments. Pet. App. 12a, 70a. The court reduced petitioner’s sentence by 10 years on other grounds. Pet.
App. 12a.

10
In 2011, petitioner filed a pro se habeas petition
in the Northern District of California, arguing,
among other things, that his confession was involuntary. Pet. App. 12a. The district court denied the
petition and declined to grant a certificate of appealability. Pet. App. 12a. In May 2013, petitioner obtained from the Ninth Circuit a certificate of appealability on the question whether the trial court
violated his due process rights by denying his motion
to suppress his confession on the grounds that it was
an involuntary product of coercion. Pet. App. 12a–
13a. The Ninth Circuit also appointed counsel to
represent petitioner on appeal. Pet. App. 12a–13a.
Within months of his appointment, petitioner’s
counsel requested that the Ninth Circuit stay the
appeal and remand to the district court so that petitioner could file an amended petition. Pet. App. 13a.
The Ninth Circuit initially denied the motion “without prejudice to filing a renewed motion accompanied
by a written indication that the district court is willing to entertain the motion.” Pet. App. 13a. Petitioner complied with those instructions and obtained
the necessary indication from the district court. The
Ninth Circuit stayed the appeal and remanded. Pet.
App. 13a.
Petitioner then filed a motion in the district court
seeking permission to reopen proceedings and amend
his petition to argue that admission of his confession
violated his Miranda rights because the officers
failed to “clearly inform[] [him of his] right to consult
with a lawyer and to have the lawyer with him during interrogation.” Pet. App. 21a; see Miranda v. Arizona, 384 U.S. 436, 471 (1966). The district court
denied the motion without prejudice to allow petitioner to exhaust his new claim in state court. Pet.

11
App. 13a. In January 2017, after petitioner had presented the Miranda claim in state court, the district
court reopened proceedings and petitioner filed a renewed motion. Pet. App. 13a. Styled as a Rule 60(b)
motion, the request sought permission “to amend to
add a new claim in petitioner’s habeas petition.” Pet.
App. 13a. The district court denied the motion as an
unauthorized second or successive petition under 28
U.S.C. § 2244(b)(3)(A). Pet. App. 13a–14a.
4. The Ninth Circuit affirmed. Pet. App. 44a.
It concluded that because petitioner’s motion asserted a new claim, it was in reality a habeas petition.
Pet. App. 32a–33a. The panel considered petitioner’s
argument that his motion, even if properly characterized as a petition, was not a “second or successive”
one because the motion sought to amend an underlying petition whose denial was at that time subject to
a timely appeal pending in the circuit. Pet. App.
27a–30a. The court recognized a divergence of authority on that question, but it reasoned that Ninth
Circuit precedent compelled dismissal. Pet. App.
32a–33a (citing Beaty v. Schriro, 554 F.3d 780 (9th
Cir. 2009)).
Judge Fletcher concurred. He agreed that circuit
precedent required the panel to conclude that petitioner’s “motion was a second or successive habeas
petition, even though it was filed while an appeal on
his initial habeas petition was awaiting adjudication.” Pet. App. 45a (Fletcher, J., concurring). But
he wrote “separately to register [his] disagreement
with [that precedent] and to urge the Supreme Court
to recognize the circuit split and to adopt the rule
stated in” decisions of the Second and Third Circuits
reaching a contrary conclusion.
Pet. App. 45a
(Fletcher, J., concurring). Judge Fletcher empha-

12
sized, among other points, that a petition is not second or successive if filed before an earlier-filed petition has been finally adjudicated on appeal. Pet.
App. 48a (Fletcher, J., concurring). And “as a matter
of ordinary language,” Judge Fletcher observed, “it is
hard to conclude that an initial habeas petition has
been ‘finally adjudicated’ when, in fact, it has not
been.” Pet. App. 48a (Fletcher, J., concurring).
Judge Fletcher also observed that “at least three cases” decided by this Court “suggest that [the cases on
the other side of the split] got it right.” Pet. App.
49a–50a (Fletcher, J., concurring) (citing Stewart v.
Martinez-Villareal, 523 U.S. 637, 642–44 (1998);
Panetti, 551 U.S. at 942–45; Slack, 529 U.S. at 488).
He concluded by again “encourag[ing] the Supreme
Court to resolve the conflict in the circuits” and expressing “optimis[m]” that when this Court grants
review, “it will agree with the Second and Third Circuits rather than ours.” Pet. App. 52a (Fletcher, J.,
concurring).
REASONS FOR GRANTING THE WRIT
This Court should grant certiorari to “resolve the
conflict in the circuits,” see Pet. App. 52a (Fletcher,
J., concurring), on an important and recurring issue
concerning access to habeas relief: whether a motion
seeking to amend a habeas petition that the district
court has denied is a “second or successive” petition
under AEDPA when the underlying petition has not
been finally adjudicated because it is pending on appeal.
This case meets all of this Court’s criteria for
granting review. It presents an important and recurring question of federal law that has produced an

13
acknowledged and intractable split in the courts of
appeals. The Ninth Circuit’s decision is incorrect, as
two courts of appeals have concluded. And the case
is an ideal vehicle. Certiorari is warranted.
A. The Question Presented Implicates an Intractable, Acknowledged Circuit Split
That Only This Court Can Resolve.
Seven circuits have considered whether a district
court filing that seeks to amend a habeas petition
currently pending on appeal is a “second or successive” petition under AEDPA. Those decisions have
produced an active 5-2 circuit split.
1. Five Courts of Appeals Treat a Filing
Seeking to Amend a Habeas Petition
Pending on Appeal as a “Second or
Successive” Petition.
Five circuit courts have held that when a prisoner seeks to amend a habeas petition that is pending
on appeal following denial in the district court, the
filing constitutes a “second or successive” petition
under AEDPA.
In Williams v. Norris, 461 F.3d 999 (8th Cir.
2006), the Eighth Circuit upheld the district court’s
dismissal of a prisoner’s motions to add an additional
claim to a habeas petition that the district court had
previously denied. The petitioner argued “that his
motions were not successive habeas petitions because the denial of his initial petition had not yet
been affirmed.” Id. at 1003. Although it acknowledged the question whether a district court decision
is a final adjudication “for the purpose[s] of deter-

14
mining whether additional motions should be
deemed second or successive habeas petitions,” id. at
1001, the court of appeals “reject[ed petitioner’s]
claim that an amendment to a petition is not a successive habeas if it occurs after the petition is denied,
but before the denial is affirmed on appeal.” Id. at
1004.
The Tenth Circuit has adopted the same rule. In
Ochoa v. Sirmons, 485 F.3d 538 (10th Cir. 2007) (per
curiam), the court rejected petitioner’s argument
that the Section 2244(b) gatekeeping provision did
not apply to his motion to amend his habeas petition
because that “habeas action ha[d] not been finally
adjudicated on appeal.” Id. at 540. The Tenth Circuit held that “the pendency of an appeal from the
denial of a first petition does not obviate the need for
authorization of newly raised claims” under Section
2244(b), id. at 539; such authorization, the court reasoned, “is required whenever substantively new
claims are raised” after “the district court has adjudicated a habeas action.” Id. at 540.1
The Seventh Circuit agreed in Phillips, 668 F.3d
433. There, the panel concluded that, under this
Court’s decision in Gonzalez v. Crosby, 545 U.S. 524
(2005), a prisoner’s Rule 60(b) motion filed after the
In Douglas v. Workman, the Tenth Circuit deviated from this
rule to allow “a habeas petitioner to supplement his habeas
petition” when “his first habeas petition was already pending . .
. on appeal.” 560 F.3d 1156, 1189 (2009). The court noted that
while it “would not ordinarily permit” such an amendment, id.
(citing Ochoa, 485 F.3d at 540–41), the case presented “unique
circumstances,” including that the supplemental filing related
to the prosecutor’s active concealment of his own misconduct in
a death penalty case, id. at 1169, 1190–96.

1

15
district court’s denial must be characterized as “an
‘application’ for collateral relief.” Phillips, 668 F.3d
at 435. The court nevertheless recognized that such
a characterization raised a different question: “But
was it a second application?” Id. The court answered that question yes, rejecting the contention
that “until a district court’s decision has become final
by the conclusion of any appeal taken,” a request to
add claims “should be treated as an amendment to
the pending [petition], rather than as a new one.” Id.
The Sixth Circuit has also endorsed this position.
In Moreland v. Robinson, 813 F.3d 315 (6th Cir.
2016), the court acknowledged an apparent intracircuit conflict between two panel decisions: one
holding “that a post-judgment petition was not second or successive in a case where the petition was
filed before the expiration of the time to appeal the
district court’s denial of the first petition,” id. at 324
(citing Clark v. United States, 764 F.3d 653, 659 (6th
Cir. 2014)); and another holding “that a habeas petition was a second or successive petition where the
petition was filed during the pendency of the appeal
from denial of the first petition,” id. (citing Post v.
Bradshaw, 422 F.3d 419, 421, 424–25 (6th Cir.
2005)). Recognizing its duty to “reconcile” these
holdings, the court adopted a rule that a “motion to
amend that seeks to raise habeas claims is a second
or successive habeas petition when that motion is
filed after the petitioner has appealed the district
court’s denial of his original habeas petition or after
the time for the petitioner to do so has expired.” Id.
at 325.
In the decision below, the Ninth Circuit aligned
itself with these circuits. Pet. App. 42a–44a. The
court acknowledged the generally accepted principle

16
that “a petition will not be deemed second or successive unless, at a minimum, an earlier-filed petition
has been finally adjudicated.” Pet. App. 29a. (internal quotation marks omitted). The court reasoned,
however, that the district court’s denial of petitioner’s initial habeas petition was a “final adjudication,”
and thus that the underlying petition was no longer
“pending” even though it was on appeal. Pet. App.
30a–33a. The majority opinion acknowledged a split
of authority on the question and “decline[d] to follow”
Second and Third Circuit “cases conclud[ing] that
[because] a habeas petition is not ‘fully adjudicated’
while its denial is pending on appeal,” “a second petition filed while that appeal is pending is not a second
or successive petition under § 2244.” Pet. App. 33a.
Judge Fletcher’s concurring opinion explained
that the circuit precedent that foreclosed relief had
been “a mistake” and urged this Court to “recognize
the circuit split,” grant review, and reverse. Pet.
App. 45a, 48–51a (Fletcher, J., concurring).
2. Two Courts of Appeals Have Held That
a Filing Seeking to Amend a Petition
Pending on Appeal Is Not a “Second or
Successive” Petition.
As the decision below correctly observed, two circuits have held, in clear conflict with the Ninth Circuit and four others, that a district court’s denial of a
habeas petition is not a final adjudication triggering
the AEDPA gatekeeping requirements, and a subsequent filing while the denial is pending on appeal
therefore is not a “second or successive” petition.
The Second Circuit established that rule in
Ching v. United States. See 298 F.3d at 177. After

17
the district court denied a Section 2255 petition, and
while the court of appeals was reviewing that decision, the prisoner filed a habeas application in the
district court asserting additional grounds for relief.
Id. at 176. The district court denied the subsequent
petition on the ground that it was “second or successive,” but the Second Circuit reversed. Id.
Then-Judge Sotomayor began by observing that
AEDPA “does not define what constitutes a ‘second
or successive’” petition. Id. at 177. “Nonetheless,”
she reasoned, “it is clear that for a petition to be ‘second or successive’ within the meaning of the statute,
it must at a minimum be filed subsequent to the conclusion of a proceeding that counts as the first.” Id.
While “[a] petition that has reached final decision
counts for this purpose,” the court explained, a “prior
district court judgment dismissing a habeas petition
does not conclusively establish that there has been a
final adjudication of that claim” because “adjudication of [an] initial § 2255 motion [is] still ongoing
during the period of appellate review.” Id. at 177–78.
Applying that reasoning, the court held that because “the denial of the [underlying petition] was
still pending on appeal before this Court and no final
decision had been reached with respect to [its] merits,” the district court “erred in treating [the subsequent] petition as” second or successive. Id. at 178–
79. The court of appeals instructed that “instead, the
district court should have construed it as a motion to
amend [the] original § 2255 petition.” Id. at 177.
The Second Circuit followed that holding in
Whab, 408 F.3d at 116. Emphasizing that “the law
allows every petitioner one full opportunity for collateral review,” the court confirmed in an opinion by
Judge Leval that a petition is not “second or succes-

18
sive” when it is filed while the denial of an earlier
petition is pending on appeal. Id. at 118 (internal
quotations omitted). Applying Ching, the court explained:
[U]ntil the adjudication of an earlier petition
has become final, its ultimate disposition
cannot be known. Thus, so long as appellate
proceedings following the district court’s
dismissal of the initial petition remain pending when a subsequent petition is filed, the
subsequent petition does not come within
AEDPA’s gatekeeping provisions for “second
or successive” petitions.
Id. (citations omitted). Citing the broader understanding of “finality” in the post-conviction context,
the court explained that an appealable denial “did
not ma[ke] the adjudication of the earlier petition
final; that adjudication will not be final until petitioner’s opportunity to seek review in the Supreme
Court has expired.” Id. at 120; see also Floyd v.
Kirkpatrick, No. 17-451, 2017 WL 3629902, at *1 (2d
Cir. Apr. 21, 2017) (“Because that motion was filed
during the pendency of Petitioner’s appeal from the
denial of his first § 2254 petition, his proposed § 2254
petition would not be successive.”); Grullon v. Ashcroft, 374 F.3d 137, 139 (2d Cir. 2004) (per curiam)
(holding “that Ching’s rationale is applicable in the
context of § 2241 petitions as well”) .
In a recent decision, the Third Circuit explicitly
aligned itself with the Second Circuit. See Santarelli, 929 F.3d at 105. There, the court was “asked to
decide whether a petition is ‘second or successive’ for
purposes of AEDPA when it is filed during the pen-

19
dency of appellate proceedings concerning a district
court’s denial of a petitioner’s initial habeas petition.” Id. at 103–04. The court answered no: “a subsequent habeas petition is not ‘second or successive’
under AEDPA when a petitioner files such a petition
prior to her exhaustion of appellate remedies with
respect to the denial of her initial habeas petition,
and thus AEDPA does not require us to perform the
gatekeeping function prior to a petitioner’s filing
such a subsequent petition in a district court.” Id. at
104.
In reaching that conclusion, the court considered
the position advanced by the Government and adopted by circuits on the opposite side of the split, which
“construe[s] as ‘second or successive’ all habeas petitions filed by a petitioner following a district court’s
denial of her initial habeas petition, regardless of
whether she has exhausted her appellate remedies.”
Id. The court viewed that position as tantamount to
arguing “that we should interpret ‘one full opportunity to seek collateral review’ to include an unstated
qualifier: ‘one full opportunity to seek collateral review’ in the district court.” Id. The Third Circuit
rejected that interpretation as “counter to Supreme
Court precedent on the finality of district court
judgments in the AEDPA context.” Id. It explained
that this Court’s decisions “counsel that a subsequent habeas petition is not necessarily a ‘second or
successive’ petition simply because the district court
has issued a ‘final’ judgment denying a petitioner’s
initial habeas petition.” Id.
The Third Circuit instead adopted the Second
Circuit’s interpretation, concluding that a prisoner
has not “expended the ‘one full opportunity to seek
collateral review’” until “after [she] has exhausted all

20
of her appellate remedies with respect to her initial
habeas petition or after the time for appeal has expired.” Id. at 104–05. The court stated:
We thus join the Second Circuit in holding
that “so long as appellate proceedings following the district court’s dismissal of the
initial petition remain pending when a subsequent petition is filed, the subsequent petition does not come within AEDPA’s gatekeeping provisions for ‘second or successive’
petitions” at the time of the subsequent petition’s filing.
Id. at 105 (quoting Whab, 408 F.3d at 118).
The decision below attempted to distinguish and
harmonize Ching, Whab, and Santarelli by highlighting minute procedural differences among them, but
the particular postures of the cases do not explain
their conflicting outcomes. The divergent holdings in
these decisions instead result from a fundamental
disagreement about the meaning of AEDPA: does the
fact that the district court has issued an appealable
denial mean that a petitioner’s habeas petition has
been “finally adjudicated” for purposes of triggering
application of that statute’s gatekeeping mechanism?
Five circuits answer yes and therefore treat any filing while the denial is on appeal as “second or successive.” Two circuits answer no because the ongoing
appeal means that the underlying petition is still

21
pending within the federal system. The cases themselves leave no doubt that they are in stark conflict.2
3. The Issue Is Important and the Circuit
Split Will Not Resolve Without a Decision From This Court.
This split among the circuits is entrenched and
unlikely to resolve without action by this Court.
Three circuits have recognized the split of authority
on the question presented, see Pet. App. 33a; Santarelli, 929 F.3d at 104; Ochoa, 485 F.3d at 543,
three circuits have denied petitions for rehearing en
banc, Pet. App. 5a; Order, Phillips v. United States,
Nos. 10-2154 & 11-1498 (7th Cir. Feb. 21, 2012); Order, Williams v. Norris, No. 04-3485 (8th Cir. Jan.
11, 2007), and the concurrence below “encourage[d]
the Supreme Court to resolve the conflict,” Pet. App.
52a (Fletcher, J., concurring). There is no realistic
prospect that the circuit conflict will disappear on its
own.
This issue need not percolate further. Seven circuits have squarely decided the question presented,
and the arguments on both sides of the split have
In circuits that have not resolved the issue, there is confusion.
The Eleventh Circuit, for example, “has no published opinion
establishing when the adjudication of a § 2255 motion becomes
final such that the ‘second or successive’ limitation applies to all
future motions.” Amodeo v. United States, 743 F. App’x 381,
385 (11th Cir. 2018) (per curiam). “In two unpublished opinions, however, [that court] appear[s] to have taken opposite
positions.” Id. at 385 n.1 (citing United States v. Terrell, 141 F.
App’x 849 (11th Cir. 2005) (per curiam); In re Cummings, No.
17-12949 (11th Cir. July 12, 2017) (per curiam) (docket entry
3)).

2

22
been fully aired. The conflict has persisted after this
Court’s decisions in Gonzalez and Banister, and neither side has changed its position in light of either
decision. The Third Circuit considered Gonzalez in
deciding Santarelli but nevertheless rejected the interpretation adopted by five circuits and aligned itself with that of the Second Circuit. The Second Circuit has declined to reconsider its position postGonzalez. See, e.g., Garcia v. Superintendent of
Great Meadow Corr. Facility, 841 F.3d 581, 582 (2d
Cir. 2016) (citing Whab, 408 F.3d at 120); Fuller v.
United States, 815 F.3d 112, 113 (2d Cir. 2016) (citing Whab, 408 F.3d at 116; Ching, 298 F.3d at 177).
And as the concurrence below explained, Banister
“has little relevance for [this] case,” Pet. App. 51a
(Fletcher, J., concurring); its holding that a Rule
59(e) motion is not a “second or successive” petition
does not address, and is not likely to change any circuit’s position, on the question presented here. See
infra, at 31–32.
Not only is the circuit split clear and established,
but it is also important and recurring. Two circuits
in the past two years alone have addressed the question presented in a published opinion. Resolution by
this Court is especially necessary because the split
threatens consequences that Congress could not have
intended. The conflict subjects prisoners across the
country to different habeas regimes based solely on
where they are held and thereby undermines AEDPA’s goals of “comity, finality, and federalism.” See
Panetti, 551 U.S. at 945 (quoting Miller-El v.
Cockrell, 537 U.S. 322, 337 (2003)). Prisoners held in
New York or Philadelphia may file a subsequent petition while denial of the initial petition is pending
on appeal. Similarly situated prisoners in Chicago,

23
Los Angeles, and Cleveland cannot. Allowing this
split to persist not only creates intolerable geographic disparities but also threatens to bar petitioners in
five circuits from presenting potentially meritorious
claims to a federal court.
B. The Decision Below Is Incorrect.
The Ninth Circuit erred in holding that an effort
to amend a habeas petition that is pending on appeal
is a “second or successive” petition. That decision
misconstrues AEDPA’s text and purpose, conflicts
with this Court’s approach to finality in the postconviction context, and lacks justification in any policy concern.
1. The decision below misreads AEDPA. While
the statute does not define “second or successive,” it
is well-settled that AEDPA “ensures ‘every prisoner
one full opportunity to seek collateral review.’”
Ching, 298 F.3d at 177 (quoting Littlejohn, 271 F.3d
at 363); see also Santarelli, 929 F.3d at 104–05; Phillips, 668 F.3d at 436. Consistent with AEDPA’s
foundations and historical practice, that opportunity
contemplates “one full course of litigation up to the
Supreme Court.” Powell Report at 42; see Federal
Habeas Corpus Reform: Eliminating Prisoners’ Abuse
of the Judicial Process: Hearing on S. 623 Before the
S. Comm. on the Judiciary, 104th Cong. 3 (1995)
(statement of Chairman Hatch) (noting goal of
providing “prisoners one complete and fair course of
collateral review in the Federal System”). Under the
Ninth Circuit’s approach, however, a habeas petitioner is limited to “one full opportunity to seek collateral review in the district court.” See Santarelli,
929 F.3d at 104. There is no basis for concluding

24
that AEDPA implicitly introduced such a severe limitation.
It is also broadly accepted that “a petition will
not be deemed second or successive unless, at a minimum, an earlier-filed petition has been finally adjudicated.” Goodrum, 824 F.3d at 1194; United States
v. Sellner, 773 F.3d 927, 931–32 (8th Cir. 2014). For
“a petition to be ‘second or successive,’ . . . it must at
a minimum be filed subsequent to the conclusion of
‘a proceeding that “counts” as the first.’” Ching, 298
F.3d at 177 (quoting Littlejohn, 271 F.3d at 363).
But a petition that is currently pending on appeal
has not reached its “conclusion” or been “finally adjudicated.” As “a matter of ordinary language, it is
hard to conclude that an initial habeas petition has
been ‘finally adjudicated’ when, in fact it has not
been.” See Pet. App. 48a–49a (when “a district court
denies a habeas petition and the petitioner appeals,
there is no final adjudication until the appeal has
been finally adjudicated”); Whab, 408 F.3d at 118
(holding that a petition has not reached final adjudication while “appellate proceedings following the district court’s dismissal of the initial petition remain
pending”).
2. The position adopted by the Ninth Circuit
“runs counter to Supreme Court precedent” in two
respects. Santarelli, 929 F.3d at 104.
a. As the Second and Third Circuits have concluded, and as the concurrence below explained, this
Court’s decisions in Martinez-Villareal, Panetti, and
Slack foreclose the conclusion that an application
seeking post-conviction relief is “second or successive” simply because it is filed after the district
court’s resolution of an earlier habeas petition.

25
Martinez-Villareal involved a prisoner who had
filed an earlier habeas petition contending, among
other things, that he was incompetent to be executed
under Ford v. Wainwright, 477 U.S. 399 (1986). See
523 U.S. at 639–40. The district court had denied
the petition and dismissed the Ford claim as premature. Later, after his execution date had been set,
the petitioner again raised his Ford claim. Id. at
640. This Court, in an opinion by Chief Justice
Rehnquist, held that the subsequent petition was not
“second or successive” even though it was “the second
time [petitioner] had asked the federal courts to provide relief on his Ford claim.” Id. at 643.
Slack reinforced this approach. The district court
dismissed petitioner’s initial federal habeas filing for
failure to exhaust in state court. 529 U.S. at 478–79.
After exhaustion, Slack—like petitioner here—
returned to federal court and filed a subsequent petition adding claims not present in his initial federal
petition. Id. at 479. Justice Kennedy, writing for the
Court, rejected the Government’s argument that the
subsequent petition was “second or successive” under
AEDPA. Id. at 488–89.
And in Panetti, this Court reaffirmed MartinezVillareal. 551 U.S. at 944–45. After his initial federal habeas petition was adjudicated, the prisoner
filed a subsequent petition that raised a Ford claim
for the first time. Id. at 938–39. The Government
argued that the later-in-time petition was “second or
successive.” Id. at 942. This Court disagreed, explaining that it “has declined to interpret ‘second or
successive’ as referring to all § 2254 applications
filed second or successively in time, even when the
later filings address a state-court judgment already
challenged in a prior § 2254 application.” Id. at 944.

26
The second petition was not barred, this Court explained, because there was “no argument that [the
prisoner’s] actions constituted an abuse of the writ.”
Id. at 947.
The same conclusion should apply here. The
Ninth Circuit incorrectly focused its analysis on the
sequence of petitioner’s filings, rather than on
whether the effort to amend qualified as an “abuse of
the writ” under equitable principles that AEDPA incorporated through the term “second or successive.”
Because petitioner’s motion sought to amend a petition that was still pending and was not otherwise
abusive, see infra at 28–30, the Ninth Circuit should
not have subjected it to the Section 2244 gatekeeping
requirement.
b. In treating as “finally adjudicated” a petition
that is pending on appeal, the Ninth Circuit also departed from “this Court’s consistent understanding of
finality in the context of collateral review.” See Clay
v. United States, 537 U.S. 522, 524 (2003). In this
context, “finality has a long-recognized, clear meaning”: a case is final after appellate review has been
exhausted or the time for such review has lapsed.
Id. at 527. Thus, in Clay, this Court unanimously
concluded that the term “becomes final” in AEDPA
means “when this Court affirms a conviction on the
merits on direct review or denies a petition for a writ
of certiorari, or when the time for filing a certiorari
petition expires.” Id. at 527. Indeed, the Government in that case conceded that a conviction becomes
final “only when the possibility of further direct review is exhausted.” See Br. of United States at 15,
Clay v. United States, 537 U.S. 522 (2003).
Similarly, writing for a unanimous Court in
Jimenez v. Quarterman, Justice Thomas reaffirmed

27
the “settled understanding” of finality in the postconviction context. 555 U.S. 113, 119 (2009). The
underlying proceeding “has not come to an end” until
appellate review has been exhausted. Id. (internal
citation and alteration omitted). And in Teague v.
Lane, among other cases, this Court stated that it
“defined final to mean a case ‘where the judgment of
conviction was rendered, the availability of appeal
exhausted, and the time for petition for certiorari
had elapsed.’” 489 U.S. 288, 295 (1989) (quoting Allen v. Hardy, 478 U.S. 255, 258 n.1 (1986)); see also,
e.g., Patchak v. Zinke, 138 S. Ct. 897, 909 (2018)
(newly passed law may apply to cases on appeal because such cases are “not final”); Miller v. French,
530 U.S. 327, 344 (2000) (“The decision of an inferior
court within the Article III hierarchy is not the final
word of the department (unless the time for appeal
has expired) . . . ”); Bradley v. School Bd. of City of
Richmond, 416 U.S. 696, 711 n.14 (1974) (defining
“final judgment” as “one where ‘the availability of
appeal’ has been exhausted or has lapsed, and the
time to petition for certiorari has passed”).
Carey v. Saffold, 536 U.S. 214 (2002), further
confirms the applicable understanding of finality.
Applying the dictionary definition and “ordinary
meaning” of the word “pending,” this Court held that
a petition for collateral review remains “pending” for
AEDPA purposes during the time between “consideration of a petition by a lower state court and further consideration by a higher state court.” Id. at
218. Until “the application has achieved final resolution through the State’s post-conviction procedures,”
including any available appeals, “by definition it remains ‘pending.’” Id. at 220; see also id. at 230
(Kennedy, J., dissenting) (observing that “an appeal

28
is not a new application; rather, it is a request that
the appellate court order the lower court to grant the
original application”; “[t]hus, an application may remain ‘pending’ in the lower court while the prisoner
pursues his appeal, because the lower court may
grant the original application at some point in the
future”). Just so here: a petition for collateral review
is “pending” (and therefore not final) while under
appellate review as part of the federal habeas process.
That “long recognized, clear” meaning of finality
accords with the understanding of that concept in
analogous contexts. This Court has emphasized that
for constitutional purposes, a district court’s merits
decision pending on appeal is not final. In Plaut v.
Spendthrift Farm, Inc., 514 U.S. 211 (1995), the
Court invalidated a law that purported to require
federal courts to reopen certain final judgments in
private civil actions. Id. at 227. In so holding, Justice Scalia’s opinion for the Court observed that “the
decision of an inferior court is not (unless the time
for appeal has expired) the final word of the [judicial]
department as a whole.” Id. Justice Scalia specifically distinguished “lower court judgments that are
pending on appeal (or may still be appealed)” from
“lower-court judgments that are final.” Id. Only the
latter, he noted, are “finally adjudicated.” Id.
Accordingly, the Ninth Circuit departed from this
Court’s cases in concluding that a habeas petition is
“finally adjudicated” when one federal court is actively reviewing the decision of another.
3. The circuits aligned with the Ninth Circuit
have sought to justify their incorrect understanding
of “final adjudication” on concerns about the effects
of a rule permitting amendment to a habeas petition

29
that remains pending on appeal. Those concerns are
misplaced. The “abuse of the writ” doctrine was developed for circumstances in which “the prisoner files
a motion, loses on the merits, exhausts appellate
remedies, and then files another motion.” See Johnson v. United States, 196 F.3d 802, 804 (7th Cir.
1999) (emphasis added); see also Ching, 298 F.3d at
178.
The circumstances at issue here present none of
the same concerns. A prisoner may successfully
amend a habeas petition pending on appeal only if,
as petitioner did here, he requests and obtains the
agreement of the court of appeals to remand to the
district court for consideration, Pet. App. 62a, and
only if the district court permits amendment under
the ordinarily applicable rules, which require that
any new filing relate back to the same events and
arise from the same facts as the underlying petition.
See Mayle v. Felix, 545 U.S. 644, 649 (2005). The
prisoner’s window for requesting amendment is limited to the time the appellate proceedings remain
pending. And in all events, courts may still invoke
the abuse-of-the-writ doctrine to dismiss filings
“whose purpose is to vex, harass, or delay.” See
Ching, 298 F.3d at 179. As the Second Circuit explained, “[t]he fact that a petition is not technically
‘second or successive,’ and subject to the gatekeeping
requirements of §§ 2244 and 2255, does not necessarily mean that its filing might not be found abusive
under the traditional equitable doctrine.” Whab, 408
F.3d at 119 n.2. Thus, rejecting the Ninth Circuit’s
position would in no sense “provid[e] a free pass to
prisoners to file numerous petitions before an initially filed petition is finally adjudicated on the merits.”
Id.

30
The history of this case is illustrative. Petitioner,
who at 15 years old had no criminal history at the
time of the offense, was sentenced to an effective life
sentence for a conviction based on his middle-of-thenight confession. Pet. App. 19a–20a. After his state
appeal concluded, he filed a pro se federal habeas
petition that alleged his confession was involuntary
but did not include the separate argument that the
warnings he received violated Miranda. Pet. App.
12a. After the district court denied the petition, the
Ninth Circuit granted a certificate of appealability
on the voluntariness issue and appointed counsel.
Pet. App. 12a. Counsel identified the Miranda issue,
moved to stay appellate proceedings, and obtained
leave from the Ninth Circuit and the district court to
file the request to amend. Pet. App. 13a. Counsel
then moved in the district court to amend the petition and filed declarations from petitioner’s prior
counsel affirming that the failure to raise the Miranda claim earlier was not a tactical decision but the
result of inattention and lack of knowledge.
Nothing in that history evinces an abuse of the
writ or warrants the categorical refusal to consider
the amended petition on the ground that it is “second
or successive.” It instead reflects a good faith exercise of the “opportunity—part of every civil case—” to
“add or drop issues while the litigation proceeds.”
Ching, 298 F.3d at 177 (internal citation omitted).
“A petitioner who seeks to assert new claims before
his first petition has been finally adjudicated is not,
by any stretch, abusing the writ.” Goodrum, 824
F.3d at 1194.
Indeed, as this case demonstrates, the erroneous
interpretation adopted below “may result in a disastrous deprivation of a future opportunity to have a

31
well-justified grievance adjudicated” in a filing that
is not remotely abusive. Ching, 298 F.3d at 177 (internal citation omitted). These “practical effects” of
the Ninth Circuit’s decision “should be considered
when interpreting AEDPA”—particularly when, as
here, “petitioners ‘run the risk’ under the proposed
interpretation of ‘forever losing their opportunity for
any federal review.’” Panetti, 551 U.S. at 945–46
(quoting Rhines v. Weber, 544 U.S. 269, 275 (2005)).
4. The Ninth Circuit also sought to justify its
position on the basis of this Court’s decisions in Gonzalez and Banister, but those cases do not “pose the
barrier that [the Ninth Circuit’s] opinion suggests.”
See Pet. App. 50a (Fletcher, J., concurring).
Gonzalez concerned a motion to reopen a district
court decision that was filed long after the time for
seeking appellate review had passed. 545 U.S. at
527. This Court therefore did not address the specific question presented here: whether a request to
amend a petition that is currently pending on appeal
is a “second or successive” petition under AEDPA.
Nor did Gonzalez address the fundamental disagreement underlying the circuit split: whether a district court decision that is pending on appeal is a “final adjudication” for AEDPA purposes. Gonzalez did
not impact the circuit split here because the district
court decision at issue in that case would qualify as
final—and the prisoner’s subsequent motion as “second or successive”—under any of the circuits that
have addressed the question presented.
Similarly, Banister neither addresses the issue in
this case nor supports the decision below. Banister
broadly held that a Rule 59(e) motion is never a second or successive habeas petition, and it distinguished such motions from the kind of Rule 60(b)

32
filing at issue in Gonzalez. 140 S. Ct. at 1710. To
the extent its reasoning is relevant here, Banister
noted that abuse-of-the-writ principles counsel
against treating as “second or successive” a filing
that seeks to amend a pending petition and that can
be brought only within a limited window. Id. at
1708. As discussed above, supra at 29, those same
considerations reinforce the Second and Third Circuit’s position that a motion to amend a habeas petition pending on appeal is not subject to AEDPA’s
gatekeeping provision.
Gonzalez bears on this case in one limited respect:
it concluded that a filing that seeks to present a
“claim” for post-conviction relief, whatever its caption or however it is styled, is properly characterized
as a habeas petition for AEDPA purposes. 545 U.S.
at 531. But Gonzalez did not purport to hold that all
filings containing such “claims” are necessarily “second or successive” petitions. To the contrary, as
courts on both sides of the circuit split have recognized, Gonzalez addressed a separate question from
the one presented here: even if a motion to amend
was a habeas petition, “was it a second application?”
Phillips, 668 F.3d at 435. The Second and Third Circuits correctly recognize that a later-in-time petition
seeking to amend one that remains pending on appeal is not “second or successive” because it was not
filed “subsequent to the conclusion of ‘a proceeding
that “counts” as the first.’” Ching, 298 F.3d at 177
(quoting Littlejohn, 271 F.3d at 363); see also Santarelli, 929 F.3d at 104. Gonzalez does not address
or define when the first proceeding concludes.
To the extent the Ninth Circuit concluded that
Gonzalez applies here because petitioner sought to
amend his underlying petition through a filing for-

33
mally captioned under Rule 60(b), that was error.
Gonzalez did not hold that any motion bearing a Rule
60(b) label is necessarily “second or successive.” To
the contrary, all Justices of this Court have agreed
that the proper characterization of a filing for these
purposes “depends on the substance of the motion,
not the label that is affixed to it.” Banister, 140 S.
Ct. at 1712 (Alito, J. dissenting); id. at 1709 (majority opinion) (analysis goes “far beyond their labels”).
The relevant question is whether the “later-in-time
filing would have ‘constituted an abuse of the writ’”
as that concept was traditionally understood. Id. at
1706. Because a motion to amend a petition that
remains pending is not abusive, petitioner’s filing,
whatever its label, was not “second or successive.”
C. This Case Presents an Ideal Vehicle.
This case cleanly presents the issue that has divided the circuit courts. The Ninth Circuit squarely
decided the question presented, declining to follow
the Second and Third Circuits, and Judge Fletcher
urged this Court to “recognize the circuit split,” grant
review, and reverse. See Pet. App. 45a (Fletcher, J.,
concurring). Petitioner has raised the question presented at every available opportunity, and it is dispositive here. Because the Ninth Circuit dismissed
petitioner’s motion on the ground that it was “second
or successive,” the district court has not addressed
the merits of petitioner’s request for leave to amend.
See Pet. App. 13a–14a. This case is therefore a suitable vehicle. A decision by this Court that petitioner’s request to amend is not a “second or successive”
petition barred by the gatekeeping mechanism would
permit the district court to consider that request un-

34
der the correct legal standard, and, if it agrees to
permit the amendment, to address the substance of
the amended petition.

35
CONCLUSION
For the reasons set forth above, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
DAVID A. O’NEIL
DEBEVOISE & PLIMPTON LLP
801 Pennsylvania Ave. N.W.
Washington, D.C. 20004
(202) 383-8000
daoneil@debevoise.com
MATTHEW SPECHT
DEBEVOISE & PLIMPTON LLP
919 Third Avenue
New York, NY 10022
SCOTT A. SUGARMAN
Counsel of record
SUGARMAN & CANNON
737 Tehama Street, No. 3
San Francisco, CA 94103
(415) 362-6252
scott@sugarmanandcannon.com
February 2021

APPENDIX

1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
ALEXANDER BALBUENA,
Petitioner-Appellant,
No. 12-16414
D.C. No. 3:11-cv00228-RS
v.
WILLIAM JOE SULLIVAN, Warden;
ATTORNEY GENERAL FOR THE STATE
OF CALIFORNIA
Respondents-Appellees.
___________________________________
ALEXANDER BALBUENA,
Petitioner-Appellant,
No. 18-15432
D.C. No. 3:11-cv00228-RS
v.
WILLIAM JOE SULLIVAN, Warden;
Respondent-Appellee.

2a
ORDER AND
AMENDED
OPINION
Appeal from the United States District Court for the
Northern District of California
Argued and Submitted November 12, 2019
San Francisco, California
Filed August 17, 2020
Amended November 17, 2020
Before: William A. Fletcher, Mark J. Bennett, andBridget S. Bade, Circuit Judges.
Order;
Opinion by Judge Bade;
Concurrence by Judge W. Fletcher

SUMMARY

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
Habeas Corpus
The panel filed an amended opinion, denied a petition for rehearing, and denied on behalf of the court
a petition for rehearing en banc, in appeals arising
from the district court’s denial of (1) Alexander Balbuena’s habeas corpus petition in which he argued
that the admission of his confession violated his due
process rights because the statements were the involuntary product of coercion; and (2) his motion
pursuant to Fed. R. Civ. P. 60(b) for relief from
judgment to allow him to amend his habeas petition
to add a new claim that the admission of his confession violated his Miranda rights.
Applying AEDPA’s deferential standards of
federal habeas review, and affirming the denial of
the petition, the panel held that the state court’s
conclusion that Balbuena’s confession was voluntary
was not contrary to or an unreasonable application of
federal law. The panel wrote that the state court did
not unreasonably conclude that Balbuena was
sixteen years old and considered his age, experience,
and maturity as part of the totality of the
circumstances of his confession. The panel
considered Balbuena’s arguments regarding the
adequacy of his Miranda warnings as part of the
totality of the circumstances relevant to his
Fourteenth Amendment claim rather than as a
separate Sixth Amendment claim, and concluded
that the state court’s determination that Balbuena
was advised of his Miranda rights was not
objectively unreasonable. The panel wrote that the
state court did not unreasonably conclude that the
circumstances of the interview, which included the
detectives’ limited references to Balbuena’s unborn

4a
child, use of “alternative scenarios,” and implied
offers of leniency were not coercive. The panel wrote
that a video recording of the interview refutes
Balbuena’s argument that those tactics overbore his
will and rendered his confession involuntary.
The panel held that the district court properly
denied Balbuena’s Rule 60(b) motion as an
unauthorized second or successive petition under 28
U.S.C. § 2244(b)(3)(A). Balbuena argued that the
district court should have considered his Rule 60(b)
motion as a motion to amend his habeas petition
because he filed it while his appeal from the denial of
his habeas petition remained pending before this
court and that his claim therefore was not “fully
adjudicated.” The panel wrote that a Rule 60(b)
motion that asserts a new claim is a disguised
habeas corpus petition that is subject to the
requirements of § 2244(b), and that because
Balbuena neither sought nor obtained authorization
from this court to file a second or successive habeas
petition, the district court lacked jurisdiction to
consider his new claim. The panel rejected
Balbuena’s contention that even if his Rule 60(b)
motion is a disguised habeas petition, it is not a
second or successive petition under § 2244(b) because
the denial of his initial petition was pending on
appeal.
Concurring in the result, Judge W. Fletcher
agreed that the state court did not unreasonably
conclude that Balbuena’s confession was voluntary.
He also agreed that Beaty v. Schriro, 554 F.3d 780,
783 n.1 (9th Cir. 2009), requires the panel to hold
that Balbuena’s Rule 60(b) motion was a second or
successive habeas petition, even though it was filed
while an appeal on his initial habeas petition was

5a
awaiting adjudication in this court.
He wrote
separately to register his disagreement with Beaty
and to urge the Supreme Court to recognize the
circuit split and to adopt the rule stated in Ching v.
United States, 298 F.3d 174, 178 (2d Cir. 2002), and
United States v. Santarelli, 929 F.3d 95, 104–05 (3d
Cir. 2019).

COUNSEL
Scott A. Sugarman (argued), Sugarman & Cannon,
San Francisco, California, for Petitioner-Appellant.
Jill M. Thayer (argued), Deputy Attorney General;
Peggy S. Ruffra, Supervising Deputy Attorney
General; Gerald A. Engler, Senior Assistant Attorney
General; Xavier Becerra, Attorney General; Office of
the Attorney General, San Francisco, California; for
Respondents-Appellees.

ORDER
The opinion filed on August 17, 2020 and
published at 970 F.3d 1176 is amended by the
opinion filed concurrently with this order.
With this amended opinion, the panel has voted
to deny the petition for rehearing and rehearing en
banc. The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed.
R. App. P. 35. Accordingly, the petition for rehearing
and rehearing en banc is DENIED. No further

6a
petitions for panel rehearing or rehearing en banc
may be filed.
OPINION
BADE, Circuit Judge:
In these consolidated appeals, Alexander
Balbuena challenges the district court’s denial of his
federal habeas petition, and its denial of his Federal
Rule of Civil Procedure 60(b) motion to set aside the
judgment and amend his habeas petition to add a
new claim. For his role in a gang-related shooting, a
jury convicted Balbuena of first-degree murder,
attempted murder, and street terrorism. Balbuena
argues that the state court’s admission of his
confession violated his due process rights because it
was the involuntary product of coercion. Balbuena
also argues that his Rule 60(b) motion was a proper
motion to amend his habeas petition and not a
disguised second or successive petition subject to 28
U.S.C. § 2244. We affirm in both matters.
I.
A.
On January 17, 2006, Jose Segura was shot and
killed while sitting in his car with Oralia Giron, and
their children. According to Giron, several men
surrounded the car. The man standing nearest to
Segura said that the men wanted revenge for the

7a
murder of “Gizmo” and then shot a gun, killing
Segura.1 Giron was also shot and injured during the
encounter, but fortuitously Segura’s and Giron’s
three-year old daughter and three-month-old son
were not injured.
Police detectives investigating the murder scene
found shell casings on the street for .32-caliber and
9-millimeter handguns, and bullet fragments in the
car and a fence. They searched a nearby house,
pursuant to a search warrant, and found a .38caliber handgun and ammunition for .22-caliber and
9-millimeter handguns.
Kristina Lawson, who
rented a room in the house from Juan Herrera (a/k/a
Willow), told officers that she saw Balbuena and
Julius Stinson (a/k/a Jukas or Jujakas) with guns
just before the shooting. She also stated that she
heard gun shots, saw Balbuena and Stinson running
to the house, and saw Balbuena enter the house
apparently trying to hide a gun under a couch. She
also said that, later in the day at the “Green Store,”
Balbuena told her that he shot Segura in the
forehead.2
After interviewing Lawson, the detectives drove
her to the apartment building where she said

Luis Ochoa (a/k/a Gizmo) had been shot and killed the
previous day.
1

Balbuena lived in an apartment known to be affiliated with
the street gang Richmond Sur Trece in a neighborhood called
the “RST compound.” The RST compound included the “Green
Store” that only RST gang members could use to sell narcotics.

2

8a
Balbuena lived and she pointed out his apartment.3
Around 2:00 a.m., after obtaining a warrant, the
detectives found Balbuena in his apartment asleep
with his pregnant girlfriend and arrested him.4
B.
Balbuena was taken to a police station where two
detectives questioned him, for approximately ninety
minutes, starting at about 2:45 a.m. Balbuena, who
was around sixteen years old, had no prior arrests.
Before the detectives started the interview, Balbuena
asked a police officer if he could use the restroom.
The police officer responded that it was “up to [the
detectives]” and that Balbuena could “ask them.”
Immediately after the interview at the house, Lawson made
similar statements in a recorded interview at the police station.
Lawson testified at trial and recanted the statements that she
made at her house and in the recorded interview. At the time
of the interviews, Lawson was fifteen years old and had some
connection to Balbuena. When officers arrested Balbuena, he
was in bed with his girlfriend and a child who was Lawson’s
son. Lawson also told detectives that Balbuena lived with her
sister-in-law.

3

Several months later, the detectives also recorded an interview with another witness, Kay Daniels. Daniels was in federal
custody for drug related offenses and wanted to trade information for a reduction in his sentence. Daniels said that a few
days after Gizmo’s murder, he was outside Herrera’s house with
Herrera, Balbuena (a/k/a Jay Leno), the “dude that used to
work at Beacon,” and Lawson, when Stinson arrived. Herrera,
the “dude that used to work at Beacon,” and Stinson ran up to a
car, and then Daniels heard several shots. Daniels identified
Stinson and the “dude that used to work at Beacon” as the
shooters. Daniels saw Herrera run back to his house with two
guns. He was unsure of Balbuena’s movements; he “didn’t really see him too much.”

4

9a
When the detectives entered the interview room,
Balbuena told them he was “cool.” Near the end of
the interview, Balbuena asked, and was permitted,
to use the restroom.
At the beginning of the interview, one of the
detectives read Balbuena his Miranda rights as
follows:
So, you know you have the right to remain silent
anything you say can be used against you in a
court, you have the right to an attorney, you have
the right to an attorney prior to your questioning
if you desire, if you can’t afford to hire one, one
will be represented to you free of charge. You
understand all those rights? You’re nodding your
head like you do, right? Okay, you’re probably
curious as to why we’re wanting to talk [to] you
tonight, is that true? With that in mind, are you
willing to talk to us about why we were at your
house tonight? Okay.
Balbuena responded, “Yup. Yup.”
Balbuena initially denied being at the scene of
Segura’s murder. The detectives then falsely told
Balbuena that they knew he was at the scene with
Stinson (Jujakas) because they had already talked to
him. They encouraged Balbuena to speak honestly,
saying “it’s important for you to be honest with us so
if there is some way to help yourself out this is the
time to do it.” They also referred to Balbuena’s
impending fatherhood, describing Balbuena as “the
sixteen year old that’s going to be a father soon.”
During the interview, the detectives also
presented Balbuena with alternative scenarios.

10a
They stated, “Either you are a young man that is
angry because your best friend was just killed . . .
[o]r somebody like Jujakas forced you to do this . . .
maybe you weren’t thinking straight, maybe you
were upset, maybe that guy aimed the gun at you,
maybe he’s a gang member, maybe he’s the guy that
killed Gizmo . . . . Was it a spur of the moment type
thing or did you plan it for the whole night?” After
this last question, Balbuena acknowledged that he
was at the scene of the murder but denied having a
gun.
The detectives continued to present alternatives:
“[I]f it’s a justifiable homicide or it’s something you
did out of rage and you just weren’t thinking straight
then that’s important for us to get down accurately.
If you’re just a killer that just wants to go around to
kill people . . . then by all means tell us and we’ll
document that as such.” “Maybe you were shooting
in defense and just, right maybe trying to scare him.”
The detectives also continued making general
appeals to Balbuena’s honesty. Balbuena continued
to deny that he had a gun but admitted he was “right
there in front of the car.”
One of the detectives then stated, “[R]emember,
we are giving you the opportunity to try to work
through this so maybe you can be there for your kid
in a few years.” Balbuena again admitted being in
front of the car and again denied having a gun. The
detectives told Balbuena that witnesses saw him
shooting a gun and asked what type of gun he had,
as “only one of them hit somebody . . . .[s]o it’s
important which one you had.” Balbuena then
admitted having a .32-caliber handgun, shooting
three or four rounds at the car’s front window, and
seeing two people in the car.

11a
As the interview progressed, the detectives
referred to the possible sentences Balbuena faced,
stated that he would be tried as an adult, and
implied that he would receive lenient treatment if he
spoke honestly and showed “remorse.” After these
statements, Balbuena provided details about the
incident. Balbuena told the detectives that Herrera
gave him the gun and told him to shoot, Balbuena
and the others—including Stinson, Herrera, and
another person—approached Segura’s car from
behind, Balbuena belonged to the RST gang, and
Segura’s murder was gang retaliation for the murder
of another RST member, “Gizmo.”
C.
Before trial, Balbuena moved to suppress his
statements as involuntary, and the trial court denied
the motion. In April 2008, a jury found Balbuena
guilty of first-degree murder, attempted murder, and
street terrorism. The trial court sentenced Balbuena
to eighty-two-years’-to-life imprisonment. On direct
appeal, Balbuena argued, among other things, that
his confession was coerced in violation of his
constitutional rights. The California Court of Appeal
concluded that the detectives improperly offered
Balbuena leniency during the latter part of the
interview, but Balbuena made critical admissions—
that he was in front of the car, that he had a .32caliber gun, and that he fired three or four rounds at
the front window of the car—before the detectives
employed improper tactics. After considering the
totality of the circumstances, including the video
recording of the interview, the circumstances of the
interview,
Balbuena’s
age,
experience,
and

12a
demeanor, and Balbuena’s waiver of his rights under
Miranda v. Arizona, 384 U.S. 436 (1966), the court
concluded that Balbuena’s statements were
voluntary.
The state appellate court further found any error
in admitting Balbuena’s statements harmless
because the evidence against him was “very strong.”
This evidence included Lawson’s statements that she
saw Balbuena near the murder scene with a gun
shortly before she heard shots, and that Balbuena
told her later that same day that he shot Segura in
the forehead. The court reduced Balbuena’s sentence
to seventy-two-years’-to-life imprisonment but
otherwise affirmed. The California Supreme Court
denied review.
In January 2011, Balbuena filed a timely petition
for a writ of habeas corpus in the district court
pursuant to 28 U.S.C. § 2254. Balbuena challenged
his conviction and argued, among other things, that
the state court’s admission of his confession violated
the Fourteenth Amendment’s Due Process Clause
because his statements were involuntary. In May
2012, the district court denied Balbuena’s habeas
petition on the merits of his claims, entered
judgment in favor of respondents, and denied a
certificate of appealability.5 Balbuena appealed, and,
in May 2013, this court appointed counsel and issued
a certificate of appealability on the sole issue of
whether the state court violated Balbuena’s right to
“A disposition is ‘on the merits’ if the district court either
considers and rejects the claims or determines that the
underlying claim will not be considered by a federal court.”
McNabb v. Yates, 576 F.3d 1028, 1029 (9th Cir. 2009) (citation
omitted).

5

13a
due process by denying his motion to suppress his
confession on the ground that it was an involuntary
product of coercion.
In August 2013, Balbuena asked this court to stay
his appeal and remand to the district court with
instructions to “permit [him] to file an amended
petition.” Balbuena acknowledged that if this court
denied his motion he would “be left to file a new
successive habeas petition,” which is generally
barred by 28 U.S.C. § 2244(b)(3). In October 2013,
this court denied the motion without prejudice to
refiling with a written indication that the district
court would be willing to entertain the motion. Balbuena obtained written indication from the district
court stating that it “was willing to entertain” further proceedings but also that it was making “no
comment on the merits of such a motion.” He then
filed a renewed motion to stay the appeal and remand to the district court to file an amended petition. In December 2013, this court stayed the appeal
and remanded under Federal Rule of Appellate Procedure 12.1(b) to permit the district court to consider
Balbuena’s Rule 60(b) motion.
Balbuena returned to the district court and filed a
Rule 60(b) motion for relief from judgment to allow
him to amend his habeas petition to add a new claim
that the admission of his confession violated his
Miranda rights. In November 2014, the district
court denied the motion without prejudice and
stayed proceedings to allow Balbuena to exhaust his
new claim in state court. In January 2017, the
district court reopened proceedings, and Balbuena
filed a renewed Rule 60(b) motion in March 2017. In
February 2018, the district court denied the motion
as an unauthorized second or successive petition

14a
under 28 U.S.C. § 2244(b)(3)(A). Balbuena appealed
that decision, and this court consolidated the
appeals.
II.
This court reviews de novo a district court’s
denial of a habeas corpus petition, Smith v. Ryan,
813 F.3d 1175, 1178–79 (9th Cir. 2016), and a
dismissal of a Rule 60(b) motion as an unauthorized
second or successive § 2254 petition, Jones v. Ryan,
733 F.3d 825, 833 (9th Cir. 2013). Both claims are
governed by standards set forth in the Antiterrorism
and Effective Death Penalty Act of 1996 (“AEDPA”).
See 28 U.S.C. §§ 2244(b), 2254(d).
III.
A.
Under § 2254, a state prisoner may challenge the
constitutionality of his custody by filing a petition for
a writ of habeas corpus in federal court. 28 U.S.C. §
2254(a). In his habeas petition, Balbuena challenged
his state custody arguing, among other things, that
the admission of his confession violated his due
process rights because his statements were the
involuntary product of coercion and, therefore, the
state trial and appellate courts unreasonably found
his confession voluntary.
We consider Balbuena’s petition under the
framework of AEDPA and apply a “highly deferential
standard for evaluating state-court rulings.”
Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per
curiam) (quoting Lindh v. Murphy, 521 U.S. 320, 333

15a
n.7 (1997)). Under AEDPA, a federal court may only
grant habeas corpus relief when the state court’s
ruling was (1) “contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States,” or (2) “based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. §
2254(d)(1), (2).
Under the first clause of § 2254(d)(1), a state
court’s decision is “contrary to” clearly established
federal law if it contradicts governing law in
Supreme Court cases, or if it reaches a different
result than Supreme Court precedent when
considering materially indistinguishable facts. See
Williams v. Taylor, 529 U.S. 362, 405–06 (2000).
Under the second clause, a state court’s decision is
an “unreasonable application” of clearly established
federal law if it identifies the correct “governing legal
rule but applies it unreasonably to the facts” of the
case. Id. at 407–08. “The ‘unreasonable application’
clause requires the state court decision to be more
than incorrect or erroneous”; it must be “objectively
unreasonable.” Lockyer v. Andrade, 538 U.S. 63, 75
(2003) (citing Williams, 529 U.S. at 409–10, 412).
Under § 2254(d)(2), a state court’s factual
determinations are not “unreasonable merely
because the federal habeas court would have reached
a different conclusion in the first instance.” Wood v.
Allen, 558 U.S. 290, 301 (2010). That “[r]easonable
minds reviewing the record might disagree” about a
factual finding is insufficient to “supersede” the state
court’s determination. Rice v. Collins, 546 U.S. 333,
341–42 (2006).

16a
When applying these standards to a petitioner’s
claims, this court considers the last reasoned state
court decision—here, the decision of the California
Court of Appeal. See Martinez v. Cate, 903 F.3d 982,
991 (9th Cir. 2018). Balbuena’s claim that the state
court violated his due process rights by admitting his
coerced confession challenges the constitutionality of
his custody. Accordingly, we consider whether the
state court’s adjudication of this claim resulted in a
decision that was “contrary to” or involved an
“unreasonable application of” established federal
law, or that was based on an unreasonable
determination of the facts considering the evidence
presented in the state court proceedings. See 28
U.S.C. § 2254(d).
B.
An involuntary or coerced confession violates a
defendant’s right to due process under the
Fourteenth Amendment and is inadmissible at trial.
Jackson v. Denno, 378 U.S. 368, 385–86 (1964); see
Dickerson v. United States, 530 U.S. 428, 433–34
(2000).
To determine whether a confession is
involuntary, we must ask “whether a defendant’s will
was overborne by the circumstances surrounding the
giving of a confession,” considering “the totality of all
the
surrounding
circumstances—both
the
characteristics of the accused and the details of the
interrogation.” Dickerson, 530 U.S. at 434 (internal
quotation marks and citations omitted).
“The
characteristics of the accused can include the
suspect’s age, education, and intelligence as well as a
suspect’s prior experience with law enforcement,”
Yarborough v. Alvarado, 541 U.S. 652, 668 (2004)

17a
(citations omitted), and the suspect’s maturity,
Withrow v. Williams, 507 U.S. 680, 693 (1993). The
“potential circumstances” of the interrogation include
its length and location, and “the failure of police to
advise the defendant of his rights to remain silent
and to have counsel present during custodial
interrogation.” Id. at 693–94 (citation omitted).
Generally telling a suspect to speak truthfully
does not amount to police coercion. See Amaya-Ruiz
v. Stewart, 121 F.3d 486, 494 (9th Cir. 1997),
overruled on other grounds by United States v.
Preston, 751 F.3d 1008 (9th Cir. 2014) (en banc).
Police deception alone also “does not render [a]
confession involuntary,” United States v. Miller, 984
F.3d 1028, 1031 (9th Cir. 1993) (citing Frazier v.
Cupp, 394 U.S. 731, 737–39 (1969)), nor is it coercive
to recite “potential penalties or sentences,” including
the potential penalties for lying to the interviewer,
United States v. Haswood, 350 F.3d 1024, 1029 (9th
Cir. 2003) (citations omitted).
“The [voluntariness] determination ‘depend[s]
upon a weighing of the circumstances of pressure
against the power of resistance of the person
confessing.’” Dickerson, 530 U.S. at 434 (second
alteration in original) (quoting Stein v. New York,
346 U.S. 156, 185 (1953)). Thus, the court reviews a
confession from a teenager with “special caution.”
Doody v. Ryan, 649 F.3d 986, 1011 (9th Cir. 2011)
(en banc). Even in the case of a juvenile, however,
indicating that a cooperative attitude would benefit
the accused does not render a confession involuntary
unless such remarks rise to the level of being
“threatening or coercive.” Juan H. v. Allen, 408 F.3d
1262, 1273 (9th Cir. 2005) (quoting Fare v. Michael
C., 442 U.S. 707, 727 (1979)).

18a
C.
Balbuena argues that his statements were
involuntary based on three factors: (1) his youth,
inexperience, and immaturity; (2) the Miranda
warnings, which he characterizes as incomplete; and
(3) the interrogation tactics. We consider whether
Balbuena’s will was overborne under the totality of
the circumstances. Dickerson, 530 U.S. at 434. We
address each of these arguments in turn, with the
transcript and the video recording of the interview to
assist our review. See Doody, 649 F.3d at 1009
(stating that “[t]he audiotapes of [the petitioner’s]
interrogation are dispositive in this case, as we are
not consigned to an evaluation of a cold record, or
limited to reliance on the detectives’ testimony.”).
1.
First, Balbuena’s status as “a juvenile is of
critical importance in determining the voluntariness
of his confession.” Id. at 1008; see Schneckloth v.
Bustamonte, 412 U.S. 218, 226 (1973) (observing that
the voluntariness of a statement depends on “the
characteristics of the accused,” including his “youth”
(citation omitted)). Balbuena asserts that he was
fifteen years old at the time of the interview and
suggests that the state court’s determination that he
was sixteen years old was an unreasonable
determination of the facts.
See 28 U.S.C. §§
2254(d)(2), (e). The evidence in the record, however,
including Balbuena’s telling the detectives he was
sixteen years old, supports the conclusion that

19a
Balbuena was sixteen years old. Thus, the state
court’s conclusion was not unreasonable.
Conceding that “whether he was 15 or 16 at the
time of the shooting is of little legal significance,”
Balbuena argues that the state court failed to
“evaluate the impact of the officers’ statements on an
isolated youngster with no relevant experience.”
Balbuena argues that this failure was objectively
unreasonable. But Balbuena’s argument is based on
the false premise that the state court “mentioned his
age only once in passing.” Instead, the state court
addressed Balbuena’s age when considering the
totality of circumstances to determine whether his
will was overborne.
That section of the state
appellate court opinion reads, in part, as follows:
Having reviewed the videotape of [Balbuena’s]
confession, we find ourselves in agreement with
the trial court’s commendably thorough and
detailed ruling regarding the nature of the
interview. While [Balbuena] was a minor without
criminal history, he was hardly a “child” as
characterized in his briefs: He was 16 years old,
arrested in bed with his pregnant girlfriend, and
well versed in the gang activities in his
neighborhood. The atmosphere of the hour and a
half long interview (which included periods when
he was left in the interview room by himself) was
not overly harsh or threatening, and [Balbuena’s]
demeanor throughout was relaxed and displayed
no intimidation or fear.
People v. Balbuena, No. A122043, 2010 WL 1783558,
*15 (Cal. Ct. App. May 5, 2010) (citation omitted).
The state court’s conclusion that Balbuena’s

20a
confession was voluntary, after considering his age
and lack of criminal record, was not an unreasonable
application of the law.
2.
Second, although Balbuena did not assert a
separate Miranda claim in the state trial or
appellate court, we consider the adequacy of the
warnings he received as another factor in the
voluntariness determination.6 See Withrow, 507 U.S.
at 693–94. Moreover, Balbuena argues that because
he has “consistently raised” the “claim of
involuntariness,” this court must weigh “[a]ll
circumstances, including the failure to advise an incustody suspect of his right to counsel.” Therefore,
as part of the totality of the circumstances relevant
to Balbuena’s Fourteenth Amendment claim, we
consider his arguments that the Miranda warnings
he received were deficient; we do not consider these
arguments as a separate Sixth Amendment claim.
Although Balbuena did not assert a Miranda claim in the trial
court, he challenged the admission of his confession on other
grounds and the court held a voluntariness hearing. The state
submitted the videotape and transcript of Balbuena’s interview,
including the Miranda warnings. On cross examination, one of
the detectives testified that Balbuena was advised “of his
rights,” and defense counsel did not challenge that statement.
The trial court concluded that Balbuena was “given his
Miranda rights at the beginning of the interview and he did
expressly waive those rights.” In the appellate court, Balbuena
challenged the voluntariness of his confession, but again did not
assert that the Miranda warnings were inadequate. The
appellate court stated, without explanation, that Balbuena “was
advised of his Miranda rights and waived them.”
6

21a
Balbuena argues that the warnings he received
were deficient because the detectives failed to advise
him that he had the right to have an attorney
present during questioning. See Miranda, 384 U.S.
at 471 (holding that a suspect “must be clearly
informed that he has the right to consult with a
lawyer and to have the lawyer with him during
interrogation”). He argues that the state appellate
court’s failure to consider the detectives’ Miranda
violation “was objectively unreasonable and contrary
to precedent.”
The Miranda decision, and the warnings it
requires
as
“absolute
prerequisite[s]
to
interrogation,” 384 U.S. at 471, are long standing
and clearly established federal law. See Williams,
529 U.S. at 412 (explaining that “clearly established
Federal law” under § 2254(d)(1) “refers to the
holdings . . . of [the Supreme] Court’s decisions as of
the time of the relevant state-court decision”).
Moreover, Balbuena correctly notes that this court
has concluded that Miranda warnings are
inadequate when they advise a defendant of the right
to counsel before questioning, but do not advise a
defendant of the right to counsel during questioning.
See United States v. Bland, 908 F.2d 471, 473–74
(9th Cir. 1990); United States v. Noti, 731 F.2d 610,
615 (9th Cir. 1984). But decisions of this court,
including Bland and Noti, are not “clearly
established Federal law” for purposes of review
under the AEDPA. See Williams, 529 U.S. at 412.
Instead, we must look to Supreme Court precedent
as we consider whether the state appellate court’s
determination that Balbuena’s confession was
voluntary, based on the totality of the circumstances
including the Miranda warnings, Withrow, 507 U.S.

22a
693–94, was an unreasonable application of federal
law.
Although the Supreme Court “has not dictated
the words in which the essential information must be
conveyed,” Florida v. Powell, 559 U.S. 50, 60 (2010),
the warnings must “reasonably convey to a suspect
his rights as required by Miranda.”
Id.
(modification, citation, and quotation marks
omitted); see also Duckworth v. Eagan, 492 U.S. 195,
202 (1989) (explaining that the Court has “never
insisted that Miranda warnings be given in the exact
form described in that decision.”). In Powell, the
Supreme Court considered an argument similar to
Balbuena’s argument—that a defendant’s Miranda
warnings were constitutionally infirm because the
detectives advised him that he had a right to an
attorney before questioning, but they did not advise
him that he had the right to have an attorney
present during questioning. See 559 U.S. at 60–62.
In Powell, the defendant was advised that he had
“the right to talk to a lawyer before answering any of
[their] questions” and “the right to use any of these
rights at any time [he] want[ed] during this
interview.” Id. at 54. The defendant, however, was
not advised that he had the right to have an attorney
present during questioning. See id.
The Court considered whether these Miranda
warnings satisfied the requirement “that an
individual held for questioning ‘must be clearly
informed that he has the right to consult with a
lawyer and to have the lawyer with him during
interrogation.’” Id. at 60 (quoting Miranda, 384 U.S.
at 471). The Court concluded that the challenged
warnings “reasonably conveyed [the defendant’s]
right to have an attorney present, not only at the

23a
outset of interrogation, but at all times.” Id. at 62.
“To reach the opposite conclusion, i.e., that the
attorney would not be present throughout the
interrogation, the suspect would have to imagine an
unlikely scenario: To consult counsel, he would be
obliged to exit and reenter the interrogation room
between each query.” Id.
Here, Balbuena was advised that he had the right
to an attorney “prior to” questioning and was also
advised that he “ha[d] the right to an attorney.” 7
Although these warnings are not identical to those
described in Powell, there could be “fairminded
disagreement,” see Harrington v. Richter, 562 U.S.
86, 103 (2011), over whether the warnings in this
case and in Powell were sufficiently similar to
conclude that the warnings “reasonably conveyed”
Balbuena’s right to have an attorney present at all
times, Powell, 559 U.S. at 62. Therefore, the state
court’s determination that Balbuena was advised of
his
Miranda
rights
was
not
“objectively
unreasonable.” See Lockyer, 538 U.S. at 75. Based
on the record in the state court, and applying the
deferential review of the AEDPA, we conclude it was
not unreasonable for the state court to conclude,
under the totality of the circumstances including the
Miranda warnings, that Balbuena’s confession was
voluntary.
3.

Balbuena was advised: “you have the right to an attorney, you
have the right to an attorney prior to your questioning if you
desire, if you can’t afford to hire one, one will be represented
[sic] to you free of charge.”

7

24a
Third, Balbuena asserts that the detectives used
coercive techniques and compares the circumstances
of his interview to Preston where, on direct appeal,
this court held that a thirty-eight minute
noncustodial interview of an eighteen-year old with
an IQ of sixty-five was coercive and rendered his
confession involuntary. 751 F.3d at 1028. Balbuena
also compares this case to Rodriguez v. McDonald,
where the court held that police officers’ suggestion
that cooperation would result in leniency supported
the conclusion that the suspect’s waiver of the right
to counsel was involuntary. 872 F.3d 908, 923–24
(9th Cir. 2017). In Rodriguez, the defendant was
fourteen years old and had Attention Deficit
Hyperactivity Disorder and a “borderline” IQ. Id. at
923–23. The officers continued to question the
defendant even after he requested a lawyer, and
“impressed upon [the defendant] that he would
imminently be charged with murder.” Id. at 924.
Like the defendants in Preston and Rodriguez,
Balbuena was a youth at the time of the interview,
but unlike those defendants there is no evidence that
Balbuena had a limited IQ or that he was “easily
confused” and “highly suggestible and easy to
manipulate.” See Preston, 751 F.3d at 1022, 1028,
1030 (suggesting that the court might “reach a
different conclusion regarding someone of normal
intelligence”). Additionally, unlike the defendant in
Rodriguez, Balbuena was advised of his Miranda
rights and never asked to speak to an attorney.
On the other hand, as Balbuena argues, the
detectives in this case used some of the same
interview techniques employed in Preston and
Rodriguez—such as suggesting alternative scenarios
and making implied offers of leniency. See Preston,

25a
751 F.3d at 1025–26; Rodriguez, 872 F.3d at 923–34.
References to a suspect’s unborn child, in some
circumstances, could also be considered a coercive
interview tactic. See Brown v. Horell, 644 F.3d 969,
980–82 (9th Cir. 2011) (deeming a confession
involuntary in light of the defendant’s limited
education, relatively young age (twenty-one years),
repeated references to his unborn child, and lengthy
custodial interrogation).
But “even a strong case for relief does not mean
the state court’s contrary conclusion was
unreasonable.” Harrington v. Richter, 562 U.S. 86,
102 (2011). Instead, we consider the totality of the
circumstances under a highly deferential standard to
determine the reasonableness of the state court’s
conclusion that Balbuena’s statements were
voluntary. See Yarborough, 541 U.S. at 664. The
“totality of the circumstances” test is a general
standard requiring “even greater deference under
AEDPA.” Cook v. Kernan, 948 F.3d 952, 968 (9th
Cir. 2020).
To be sure, Balbuena’s youth and lack of
experience with law enforcement, the time of the
interview, the location of the interview, and the
detectives’ tactics are all factors that could
potentially support a conclusion that Balbuena’s
confession was involuntary. See, e.g., Haley v. Ohio,
332 U.S. 596, 599–600 (1948) (finding confession
involuntary when a fifteen-year-old was questioned
for five hours, between midnight until dawn, by
“relays of” one or two officers at a time); Doody, 649
F.3d at 1009, 1012–13 (finding confession
involuntary when a seventeen-year-old was
questioned for nearly thirteen hours by “tag teams”
of two, three, and four detectives, while isolated,

26a
sleep deprived, and held in a room with only a
straight-backed chair and no table to lean on, and
relentlessly questioned even after he stopped
responding, and told that he had to answer
questions). But the circumstances of Balbuena’s
interview are a far cry from Haley and Doody.
Contrary to Balbuena’s arguments that the
detectives overbore his will, the video recording
reveals that the tone of the interview was nonthreatening.
Balbuena spoke easily with the
detectives, displayed a calm demeanor with no
indication of fear or intimidation, and did not react
when the detectives referred to his unborn child. He
even spontaneously offered to show the detectives his
tattoo.
The interview lasted ninety minutes,
including breaks and an approximately thirtyminute period when Balbuena was left alone in the
room.
The same two detectives conducted the
interview and Balbuena was not subjected to “tag
team” questioning, nor was he surrounded by
multiple officers. Balbuena sat in a chair next to a
table in a relaxed posture with his hands behind his
head or with one arm slung over the back of chair for
a large portion of the interview. About an hour into
the interview, Balbuena yawned and leaned on the
table when the detectives left the room, but he
returned to a more upright posture and alternated
between leaning on the table and sitting upright for
the remainder of the interview.
In sum, the video recording of Balbuena’s
interview, like the audio recording in Doody, is
dispositive and supports the state court’s conclusion
that Balbuena voluntarily confessed.
D.

27a
We conclude that the state court’s voluntariness
determination was not contrary to or an
unreasonable application of federal law. The state
court considered the totality of the circumstances,
including the adequacy of the Miranda warnings.
The state court did not unreasonably conclude that
Balbuena was sixteen years old and considered his
age, experience, and maturity as part of the totality
of the circumstances of his confession. Finally, the
state court did not unreasonably conclude that the
circumstances of the interview, which included the
detectives’ limited references to Balbuena’s unborn
child, use of “alternative scenarios,” and implied
offers of leniency, were not coercive. The video
recording of the interview refutes Balbuena’s
argument that those tactics overbore his will and
rendered his confession involuntary.
Therefore,
applying AEDPA’s highly deferential standard for
habeas corpus review, we conclude that the state
court’s determination that Balbuena’s confession was
voluntary was not unreasonable.
IV.
We next address whether the district court erred
by denying Balbuena’s Rule 60(b) motion as an
unauthorized second or successive petition under 28
U.S.C. § 2244(b)(3)(A). Balbuena argues that the
district court should have considered his Rule 60(b)
motion as a motion to amend his habeas petition
because he filed it while his appeal from the denial of
his habeas petition remained pending before this
court. Therefore, Balbuena contends, his claim was
not “fully adjudicated.” Because Balbuena asserted a

28a
new claim in his Rule 60(b) motion despite the
district court’s previously adjudicating his habeas
petition on the merits, we conclude that the district
court properly denied that motion as an
unauthorized second or successive petition.
A.
AEDPA generally bars second or successive
habeas petitions. Section 2244(b)(1) states that “[a]
claim presented in a second or successive habeas
corpus application under section 2254 that was
presented in a prior application shall be dismissed.”
28 U.S.C. § 2244(b)(1). No exceptions exist to this
statutory bar. See Goodrum v. Busby, 824 F.3d 1188,
1193 (9th Cir. 2016) (explaining that claims asserted
in an earlier petition “must be dismissed, period”).
“If a second or successive petition presents new
claims that were not previously raised, those claims
must be dismissed as well . . . .” Id. (citing 28 U.S.C.
§ 2244(b)(2)).
Congress, however, provided two
narrow exceptions to this statutory bar. The first
applies if the “new claim relies on a new rule of
constitutional law, made retroactive on collateral
review.” 28 U.S.C. § 2244(b)(2)(A). The other applies
if the new claim turns on newly discovered evidence
that shows a high probability of actual innocence.
Id. § 2244(b)(2)(B).
Before filing a second or successive petition, a
petitioner must file a motion in the appropriate court
of appeals and obtain an order authorizing the
district court to consider the petition. See id. §
2244(b)(3)(A). This requirement is jurisdictional.
See Cooper v. Calderon, 274 F.3d 1270, 1274–75 (9th
Cir. 2001) (per curiam). Here, the district court

29a
concluded that Balbuena attempted to assert a new
claim through his Rule 60(b) motion and, therefore,
it was “in truth a request to file an unauthorized
second or successive habeas petition” because
Balbuena had not obtained an order from this court
authorizing the district court to consider it.
Balbuena argues that the district court
mischaracterized his Rule 60(b) motion as a second
or successive petition subject to § 2244, when it
should have construed it as a motion to amend his
habeas petition under Rules 15 and 60(b).
Balbuena’s argument turns on his characterization of
his habeas petition as “pending” because “all
proceedings, including appellate proceedings, have
not been completed.”
Generally, “a petition will not be deemed second
or successive unless, at a minimum, an earlier-filed
petition has been finally adjudicated.” Goodrum, 824
F.3d at 1194 (citing Woods v. Carey, 525 F.3d 886,
889 (9th Cir. 2008)). “Thus, when a petitioner files a
new petition while his first petition remains pending,
courts have uniformly held that the new petition
cannot be deemed second or successive.”
Id.
(citations omitted).
Moreover, a movant does not make a habeas
corpus claim, and therefore does not file a successive
petition, “when he merely asserts that a previous
ruling which precluded a merits determination was
in error—for example, a denial for such reasons as
failure to exhaust, procedural default, or statute-oflimitations bar.” See Gonzalez v. Crosby, 545 U.S.
524, 532 n.4 (2005); see also Slack v. McDaniel, 529
U.S. 473, 485–86 (2000) (concluding that a habeas
petition filed “after an initial habeas petition was
unadjudicated on its merits and dismissed for failure

30a
to exhaust state remedies is not a second or
successive petition”); Stewart v. Martinez-Villareal,
523 U.S. 637, 644–45 (1998) (explaining that a
habeas petition filed after an earlier petition was
dismissed as premature was not a second or
successive petition but part of the adjudication of the
first petition).
Balbuena does not dispute that the district court
denied his habeas petition on the merits. Instead, he
argues that a habeas petition is not “finally
adjudicated,” even after a district court has denied it
on the merits, if that denial is pending on appeal.
Therefore, we first consider whether Balbuena’s
habeas petition was “pending” for purposes of § 2244
because its denial was on appeal in this court when
he filed his Rule 60(b) motion in the district court.
B.
To support his argument, Balbuena relies on two
cases from this circuit, Woods and Goodrum, and
attempts to distinguish another, Beaty v. Schriro,
554 F.3d 780 (9th Cir. 2009) (published order). But
we have not adopted the meaning of “finally
adjudicated” that Balbuena advocates. Therefore,
Balbuena’s reliance on Woods and Goodrum is
misplaced, and his attempt to distinguish Beaty fails.
Furthermore, these cases do not address Rule
60(b) motions.
As we explain later, this is a
significant procedural distinction that we must
consider in light of the Supreme Court’s holding in
Gonzalez that a Rule 60(b) motion that asserts a
claim on the merits is in effect a habeas petition and
is subject to requirements of § 2244(b) for successive
petitions. See 545 U.S. at 531–32.

31a
1.
Contrary to Balbuena’s characterization of Woods
and Goodrum, we have not held that a habeas
petition is pending, and thus not “fully adjudicated,”
simply because the denial of that petition is before
this court on appeal. In Woods, we considered
whether § 2244(b) barred a pro se petitioner’s second
habeas petition, which he filed while his first petition
was still pending in the district court. 525 F.3d at
887. We held that the district court should have
construed the second petition as a motion to amend
the petition that was still pending in the district
court. Id. at 890. But we did not consider how to
treat a second petition that is filed while a prior
petition is pending on appeal. Therefore, Woods
establishes only that a petition that is still pending
in the district court is not final for purposes of §
2244. It offers no support for Balbuena’s position.
Our decision in Goodrum similarly fails to
support Balbuena’s argument.
There, we
explained—interpreting Woods—that if a petitioner
files a second petition in the district court while his
first petition is still pending in that court, the district
court must rule on the second petition as a motion to
amend under Rule 15. 824 F.3d at 1195. If a
petitioner files an application for leave to file a
second or successive petition in this court and
“informs us that an earlier-filed petition remains
pending” in the district court, we must construe that
application as a motion to amend, but “we lack[]
authority to rule on such a motion in the first
instance.” Id. Instead, “[w]e can issue an order
advising the pro se petitioner that his application is

32a
being denied as unnecessary on the ground that the
new petition he seeks to file is not second or
successive and that he is therefore free to file it in
the district court,” or if the new petition is attached
to the application, as our rules require, “we can
transfer the petition to the district court.” Id. But
our decision in Goodrum does not resolve the
question here: whether a petition should be
considered “finally adjudicated” when its denial is
pending on appeal.
If our decisions in Woods and Goodrum do not
support Balbuena’s position, then our decision in
Beaty defeats it. There, after the district court
denied the petitioner’s habeas petition in the first
instance and on remand after a first appeal, he filed
a motion to amend his petition and argued that it
should be considered part of his original habeas
proceeding. Beaty, 554 F.3d at 782. The district
court denied the motion to amend, the petitioner
appealed again, and while that appeal was pending,
he applied to file a second or successive petition,
arguing his additional claims should be considered as
part of his original habeas proceeding. Id. We
rejected the petitioner’s arguments and “decide[d]
that [he] cannot use Woods to amend his petition
after the district court has ruled and proceedings
have begun in this court . . . .” Id. at 783 n.1.
Because the petitioner did not move to amend until
“after the district court had denied his claims,” he
was required to satisfy the requirements for
successive petitions under § 2244(b). Id. at 782–83.
Here, like the petitioner in Beaty, Balbuena
sought to add a new claim after the district court
denied his petition and he appealed that denial.
Applying Beaty, the district court properly

33a
considered Balbuena’s Rule 60(b) motion a second or
successive application for habeas corpus relief.
Because Balbuena neither sought, nor obtained,
authorization from this court to file a second or
successive habeas petition, the district court lacked
jurisdiction to consider Balbuena’s new claim. See 28
U.S.C. § 2244(b)(3); Cooper, 274 F.3d at 1274–75.
2.
Despite Beaty’s clear command, Balbuena urges
this court to follow the Second Circuit’s decisions in
Ching v. United States, 298 F.3d 174 (2d Cir. 2002),
and Whab v. United States, 408 F.3d 116 (2d Cir.
2005), as well as the Third Circuit’s decision in
United States v. Santarelli, 929 F.3d 95 (3d Cir.
2019). In contrast to our holding in Beaty, each of
these cases concluded that a habeas petition is not
“fully adjudicated” while its denial is pending on
appeal and, therefore, a second petition filed while
that appeal is pending is not a second or successive
petition under § 2244. Santarelli, 929 F.3d at 104–
05; Whab, 408 F.3d at 118; Ching, 298 F.3d at 175.
To the extent these cases conflict with Beaty, we
decline to follow them. See United States v. Hayes,
231 F.3d 1132, 1139–40 (9th Cir. 2000).
Moreover, these cases are distinguishable because
they do not address Rule 60(b) motions or apply
Gonzalez. 8 In Santarelli and Ching, after the
The Second Circuit issued its decisions in Ching and Whab
before the Supreme Court’s decision in Gonzalez. In Santarelli,
the Third Circuit distinguished Gonzalez because the
petitioner’s motion to file a second or successive petition was
not a Rule 60(b) motion. 929 F.3d at 105.
8

34a
appellate courts reversed and remanded the denial of
the petitioners’ initial habeas petitions, the initial
and second petitions were before the district courts
simultaneously. Santarelli, 929 F.3d at 107; Ching,
298 F.3d at 176. Therefore, the district courts could
apply Rule 15 and consider the petitioners’ second
petitions as motions to amend the initial petitions.9
Santarelli, 929 F.3d at 105; Ching, 298 F.3d at 179–
80.
In Whab, the court of appeals denied a certificate
of appealability for the petitioner’s initial habeas
petition and transferred his motion seeking leave to
file a second petition to the district court, concluding
that the subsequent petition was not second or
successive. 10 408 F.3d at 118, 120. However, the
court distinguished Ching because, after it denied
the certificate of appealability, “the district court
The courts explained that when the denial of a habeas petition
is pending on appeal, the district court lacks jurisdiction to
consider a subsequent petition as a motion to amend.
Santarelli, 929 F.3d at 106 (citing Griggs v Provident Consumer
Disc. Co., 459 U.S. 56, 58 (1982)); Ching, 298 F.3d at 180, n.5
(same).
The Third Circuit concluded that, given these
“jurisdictional dynamics,” a motion to file a subsequent habeas
petition, filed when the denial of an initial petition is pending
on appeal, should be construed as a motion to amend and
stayed in the district court pending the resolution of the appeal.
Santarelli, 929 F.3d at 105-06. Both courts, however, concluded
that if the district court’s denial of an initial petition is
affirmed, the petitioner must satisfy the requirements
applicable to second or successive petitions. Id. at 106; Ching,
298 F.3d at 180 n.5.
9

Whab involved a petition under 28 U.S.C. § 2255, but §
2244(a)(3)(A) also applies to second or successive § 2255
petitions.

10

35a
never had [Whab’s] two petitions before it
simultaneously.” Id. at 119. The court explained
that it could “see no reason in these circumstances to
instruct the district court to treat the new petition as
a motion to amend the initial petition.” Id. Thus,
the court apparently concluded that Rule 15 would
not apply on remand, but it did not address Rule 60
or any other potentially applicable rules or
procedures.
Here, we entered a limited remand under Federal
Rule of Appellate Procedure 12.1(b) for the district
court to consider Balbuena’s Rule 60(b) motion, but
we retained jurisdiction over the denial of his habeas
petition. Unlike Ching and Santarelli, the district
court could not apply Rule 15; instead, it could only
consider Balbuena’s new claim if it set aside its
earlier judgment under Rule 60(b). See Lindauer v.
Rogers, 91 F.3d 1355, 1357 (9th Cir. 1996) (“[O]nce
judgment has been entered in a case, a motion to
amend the complaint can only be entertained if the
judgment is first reopened under a motion brought
under Rule 59 or 60.”). But, as we explain next,
Gonzalez establishes that Balbuena’s Rule 60(b)
motion was a disguised habeas petition, and the
district court properly denied it as an unauthorized
second or successive petition.
C.
Under Rule 60(b), a party may seek relief from a
final judgment under limited circumstances,
including fraud, mistake, newly discovered evidence,
or any other reason that justifies relief. Fed. R. Civ.
P. 60(b). In Gonzalez, the Supreme Court explained
that “Rule 60(b), like the rest of the Rules of Civil

36a
Procedure, applies in habeas corpus proceedings
under 28 U.S.C. § 2254, only ‘to the extent that [it is]
not inconsistent with’ applicable federal statutory
provisions and rules.” 545 U.S. at 529 (alteration in
original) (footnote omitted) (quoting 28 U.S.C. §
2254). Therefore, the Court considered “whether, in
a habeas case, [Rule 60(b)] motions are subject to the
additional restrictions that apply to ‘second or
successive’ habeas corpus petitions under the
provisions of [AEDPA], codified at 28 U.S.C. §
2244(b).” Id. at 526.
To answer this question, the Court first
considered “whether a Rule 60(b) motion filed by a
habeas petitioner is a ‘habeas corpus application’ as
the statute uses that term,” id. at 530 (quoting 28
U.S.C. § 2244(b)), and determined that “an
‘application’ for habeas relief is a filing that contains
one or more ‘claims,’” id. The Court then defined a
“claim” as “an asserted federal basis for relief from a
state court’s judgment of conviction.” Id. Thus, a
Rule 60(b) motion asserts a claim if it “seeks to add a
new ground for relief” or “attacks the federal court’s
previous resolution of a claim on the merits.” Id. at
532.
Furthermore, a Rule 60(b) motion that asserts a
previously omitted claim based on excusable neglect,
or argues newly discovered evidence supports a
previously denied claim, or argues a change in
substantive law justifies relief from the previous
denial of a claim, “is in substance a successive
habeas petition and should be treated accordingly.”
Id. at 531; see also Jones, 733 F.3d at 834 (“[A]
motion that . . . ‘in effect asks for a second chance to
have the merits determined favorably’ raises a claim
that takes it outside the bounds of Rule 60(b) and

37a
within the scope of AEDPA’s limitations on second or
successive habeas corpus petitions.”
(quoting
Gonzalez, 545 U.S. at 532 n.5)).
The Court explained that “[a] habeas petitioner’s
filing that seeks vindication of such a claim is, if not
in substance a ‘habeas corpus application,’ at least
similar enough that failing to subject it to the same
requirements would be ‘inconsistent with’ the
statute.” Gonzalez, 545 U.S. at 531 (quoting 28
U.S.C. § 2254 Rule 11)). Therefore, “[u]sing Rule
60(b) to present new claims for relief from a state
court’s judgment of conviction—even claims couched
in the language of a true Rule 60(b) motion—
circumvents AEDPA’s requirement that a new claim
be dismissed unless it relies on either a new rule of
constitutional law or newly discovered facts.” Id.
Using Rule 60(b) to present such claims would also
“impermissibly circumvent the requirement that a
successive habeas petition be precertified by the
court of appeals as falling within an exception to the
successive-petition bar.” Id. at 532. Therefore, a
Rule 60(b) motion that asserts a new claim is in
effect a habeas corpus petition that is subject to the
requirements of § 2244(b). See id. at 531–32.
But if no claim is presented, then a Rule 60(b)
motion should not be treated like a habeas corpus
petition. Id. at 533. A Rule 60(b) motion is not a
subsequent habeas petition when it “attacks, not the
substance of the federal court’s resolution of a claim
on the merits, but some defect in the integrity of the
habeas proceedings.” Id. at 532; see also Jones, 733
F.3d at 836 (“Gonzalez firmly stands for the principle
that new claims cannot be asserted under the format
of a Rule 60(b) motion, and instead Rule 60(b) is
properly applied when there is some problem going

38a
to the integrity of the court process on the claims
that were previously asserted.”).
Balbuena
distinguishes
Gonzalez
by
characterizing it as holding that “an applicant’s Rule
60(b) motion may be, not must be, a successive
habeas application.” This argument is technically
correct; Gonzalez explained that not all Rule 60(b)
motions are disguised habeas petitions. See 545 U.S.
at 533 (“When no ‘claim’ is presented, there is no
basis for contending that the Rule 60(b) motion
should be treated like a habeas corpus application.”).
But this argument does not explain why Balbuena’s
Rule 60(b) motion is not a disguised habeas petition.
Balbuena acknowledges that the Miranda claim he
asserts in his Rule 60(b) motion is a new claim. 11
Therefore, Balbuena’s Rule 60(b) motion “seeks to
add a new ground for relief,” and we must conclude
that it is a disguised habeas petition. See id. at 532.
D.
But does our conclusion that Balbuena’s Rule
60(b) motion is a disguised habeas petition mean
that it is a second or successive petition and subject
to the requirements of § 2244(b)? Balbuena states
Balbuena argued to the district court that he should receive
relief under Rule 60(b) because his state court counsel failed to
raise his Miranda claim. But “an attack based on the movant’s
own conduct, or his habeas counsel’s omissions . . . ordinarily
does not go to the integrity of the proceedings.” Gonzalez, 545
U.S. at 532 n.5.
Therefore, the district court correctly
concluded that Balbuena was not alleging a defect in the federal
habeas proceedings but was instead asking to amend his
petition to add a new claim.
11

39a
that Gonzalez “did not address when a second-intime application constitutes a ‘successive’ petition
under the statute nor when a petition is ‘finally’
adjudicated.” Thus, he appears to argue that even if
his Rule 60(b) motion is a disguised habeas petition,
it is not a second or successive petition under §
2244(b) because the denial of his initial petition was
pending on appeal. But, as we set forth next, neither
the Supreme Court’s reasoning in Gonzalez, nor its
further explanation of Rule 60(b) motions in Banister
v. Davis, ___ U.S. ___, 140 S. Ct. 1698 (2020), support
this argument. And we have not identified any court
that has adopted it.
1.
First, the petitioner in Gonzalez filed his Rule
60(b) motion after the conclusion of his appeal from
his initial habeas petition, 545 U.S. at 527, but the
Court’s analysis did not turn on, or even address, the
timing of the Rule 60(b) motion, id. at 530–32.
Instead, the Court focused on the nature of the
motion, concluding that a Rule 60(b) motion that
asserts a claim on the merits is a disguised habeas
petition and “in substance a successive habeas
petition [that] should be treated accordingly.” Id. at
531. However, a Rule 60(b) motion that does not
assert a claim, but instead attacks the integrity of
the proceedings, is a proper Rule 60(b) motion not
subject to § 2244(b). Id. at 532–33. In contrast to
Balbuena’s contention, Gonzalez does not suggest
that a Rule 60(b) motion advancing a new claim is
not a successive petition if it is filed during the
appeal of the initial petition.

40a
2.
Second, the Supreme Court’s recent decision in
Banister further supports the conclusion that Rule
60(b) motions asserting new claims, regardless of
when they are filed, are successive habeas petitions
subject to the requirements of § 2244(b). See 140 S.
Ct. at 1709–10. In Banister, the Court held that
Rule 59(e) motions to alter or amend a judgment are
not successive habeas petitions. Id. at 1702. In
reaching that conclusion, the Court distinguished
Gonzalez and its holding that a Rule 60(b) motion
asserting a claim is a habeas petition. Id. at 1709
(explaining that a Rule 60(b) motion “counts as a
second or successive habeas application . . . so long
as the motion ‘attacks the federal court’s previous
resolution of a claim on the merits’” (citations
omitted)).
The Court began with the history of Rule 59(e)
and Rule 60(b) motions, explaining that “Rule 59(e)
derives from a common-law court’s plenary power to
revise its judgment during a single term of court,
before anyone could appeal.” Id. But Rule 60(b), in
contrast,
codifies various writs used to seek relief from a
judgment at any time after the term’s
expiration—even after an appeal had (long since)
concluded. Those mechanisms did not (as the
term rule did) aid the trial court to get its
decision right in the first instance; rather they
served to collaterally attack its already completed
judgment.

41a
Id. (emphasis added). The Court further explained
that while pre-AEDPA cases seldom denied Rule
59(e) motions for raising repetitive claims, they
regularly denied Rule 60(b) motions on that basis.
Id. This difference was because pre-AEDPA “courts
recognized Rule 60(b)—as contrasted to Rule 59(e)—
as threatening an already final judgment with
successive litigation.” Id.
In addition, the Court explained that “Rule 60(b)
motions can arise long after the denial of a prisoner’s
initial petition—depending on the reason given for
relief, within either a year or a more open-ended
‘reasonable time.’” Id. at 1710 (quoting Fed. R. Civ.
P. 60(c)(1)). The Court noted that in Gonzalez the
petitioner filed his Rule 60(b) motion more than a
year after his appeal from his initial petition ended.
Id. (citing Gonzalez, 545 U.S. at 527). But, as the
Court explained, “[g]iven that extended timespan,
Rule 60(b) inevitably elicits motions that go beyond
Rule 59(e)’s mission of pointing out the alleged errors
in the habeas court’s decision.” Id. And the Court
pointed out that “the appeal of a Rule 60(b) denial is
independent of the appeal of the original petition,”
and “does not bring up the underlying judgment for
review.” Id. (citation omitted).
Finally, the Court summarized why a motion to
set aside a judgment under Rule 60(b) motion, if it
asserts claims, is a successive petition, while a
motion to set aside a judgment under Rule 59(e) is
not:
In short, a Rule 60(b) motion differs from a Rule
59(e) motion in its remove from the initial habeas
proceeding. A Rule 60(b) motion—often distant in
time and scope and always giving rise to a

42a
separate appeal—attacks an already completed
judgment. Its availability threatens serial habeas
litigation; indeed, without rules suppressing
abuse, a prisoner could bring such a motion
endlessly.
Id. None of these reasons for distinguishing Rule
59(e) motions from Rule 60(b) motions—and
concluding that Rule 60(b) motions that assert
claims are disguised habeas petitions, while Rule
59(e) motions are not—is in any way affected by or
related to the timing of when a Rule 60(b) motion is
filed.
The Court’s analysis of Rule 60(b) motions as
removed from the initial habeas proceeding,
collaterally attacking the judgment, and threatening
serial habeas litigation, applies with equal force to
Rule 60(b) motions filed during the appeal of an
initial habeas proceeding and to such motions filed
after the appeal is completed. Therefore, the Court’s
explication of Rule 60(b) motions in Banister
undermines Balbuena’s arguments to distinguish
Gonzalez.
3.
Third, Balbuena does not cite, and we have not
identified, any case that distinguishes Gonzalez on
the basis Balbuena suggests: A Rule 60(b) motion,
although a disguised habeas petition, is not a second
or successive petition if it was filed during the appeal
of an earlier petition. To the contrary, the Seventh
Circuit has rejected this argument. See Phillips v.
United States, 668 F.3d 433, 435 (7th Cir. 2012). In
Phillips, while the petitioner’s appeal from the denial

43a
of his § 2255 motion was pending, he filed a Rule
60(b) motion for relief from the judgment. Id. at 434.
Applying Gonzalez, the court concluded that the Rule
60(b) motion sought relief on the merits and was an
application for collateral review. Id. at 435. The
court also concluded that the Rule 60(b) motion was
a second application for habeas relief, stating that to
hold otherwise “would drain most force from the
time-and-number limits in § 2244 and § 2255.” Id.12
Similarly, in Santarelli the Third Circuit
distinguished Gonzalez because the petitioner’s
motion to file a second or successive petition was not
a Rule 60(b) motion and because of “the inherent
nature of Rule 60(b) motions.” 929 F.3d at 105. The
Third Circuit stated that its precedent was
consistent with the Seventh Circuit’s holding in
Phillips that a Rule 60(b) motion, addressed to the
merits, is a second or successive petition, even if filed
while an appeal from an initial petition is pending.
Id. The court explained that under its precedent a
Rule 60(b) motion is a second or successive petition:
“[A] Rule 60(b) motion that raises a claim attacking
the underlying criminal judgment must be a second
or successive petition because, the judgment having
become final, the petitioner has expended the one
full opportunity to seek collateral review that
Because it had not been invoked, the court rejected any
reliance on Seventh Circuit Rule 57, which allows a district
judge to request a remand to “correct errors that affect[ed] the
proceedings.” See Phillips, 668 F.3d at 436. The court
explained the steps to invoke Rule 57, which require the district
court to indicate that it is inclined to grant the Rule 60(b)
motion, and stated that “[o]nly this combination of steps
renders the judgment non-final and allows a modification while
the appeal is pending.” Id.
12

44a
AEDPA ensures.”
Id. (alteration in original)
(quoting Blystone v. Horn, 664 F.3d 397, 413 (3d Cir.
2011)). Therefore, although Balbuena argues that we
should follow the reasoning of Santarelli, as it turns
out, the Third Circuit’s application of Gonzalez does
not support his position that his Rule 60(b) motion
was not a successive petition.
We conclude that the district court correctly
applied Beaty and Gonzalez and denied Balbuena’s
Rule 60(b) motion as an unauthorized second or
successive habeas petition. In addition, we have
identified no authority from our sister circuits that
supports Balbuena’s argument that his Rule 60(b)
motion, even if considered a disguised habeas
petition, was not a successive petition. Accordingly,
we affirm the district court’s order denying the
motion.
V.
Applying the deferential standards of federal
habeas review, we conclude that the state court
reasonably concluded that Balbuena’s confession was
voluntary, and we affirm the district court’s denial of
the habeas petition. Because Balbuena’s Rule 60(b)
motion sought to add a new claim after the district
court adjudicated his habeas petition on the merits,
we conclude that the district court correctly denied
the motion, and we affirm.
AFFIRMED.

45a
W. FLETCHER, Circuit judge, concurring in the result:
I agree with my colleagues that the state court
did not unreasonably conclude that Balbuena’s
confession was voluntary. I also agree that Beaty v.
Schriro, 554 F.3d 780, 783 n.1 (9th Cir. 2009),
requires us to hold that Balbuena’s Rule 60(b)
motion was a second or successive habeas petition,
even though it was filed while an appeal on his
initial habeas petition was awaiting adjudication in
our court.
I write separately to register my
disagreement with Beaty and to urge the Supreme
Court to recognize the circuit split and to adopt the
rule stated in Ching v. United States, 298 F.3d 174,
178 (2d Cir. 2002), and United States v. Santarelli,
929 F.3d 95, 104–05 (3d Cir. 2019).
“AEDPA places strict limitations on the ability of
a petitioner held pursuant to a state judgment to file
a second or successive federal petition for writ of
habeas corpus.” Gonzalez v. Sherman, 873 F.3d 763,
767 (9th Cir. 2017); see 28 U.S.C. § 2244(b); see also
Goodrum v. Busby, 824 F.3d 1188, 1193 (9th Cir.
2016) (providing background). The phrase “second or
successive” is undefined by AEDPA. It is a “term of
art” and “does not simply refer to all [habeas]
applications filed second or successively in time.”
Magwood v. Patterson, 561 U.S. 320, 331–32 (2010)
(internal quotation marks, alterations, and citation
omitted). Over time, “the rule that emerged is that a
petition will not be deemed second or successive
unless, at a minimum, an earlier-filed petition has
been finally adjudicated.” Goodrum, 824 F.3d at
1194. The question before us is whether an initial

46a
habeas petition has been “finally adjudicated” when
the petition still awaits adjudication on appeal.
In Ching, the Second Circuit held that a habeas
petition still pending on appeal has not been finally
adjudicated within the meaning of the limitation on
second or successive petitions. The petitioner in
Ching filed a motion under 28 U.S.C. § 2255,
attacking his conviction in federal district court. The
district court denied the motion, and Ching appealed.
While his appeal was pending before the Second
Circuit (which eventually vacated and remanded the
district court’s denial), Ching filed a habeas petition
under 28 U.S.C. § 2241 in district court. The district
court treated the § 2241 petition as a motion under §
2255, concluded that it was second or successive, and
denied it. The Second Circuit agreed that the § 2241
petition should have been treated as a motion under
§ 2255 but disagreed that it was a second or
successive motion. The court held that “the district
court should [have] construe[d] the second § 2255
motion as a motion to amend the pending § 2255
motion.” 298 F.3d at 177. The court wrote:
We find that adjudication of Ching’s initial
motion was not yet complete at the time he
submitted his second § 2255 motion. The denial
of [his first motion] was still pending on appeal
before this Court and no final decision had been
reached with respect to the merits of Ching’s
claim.
Id. at 178; see also Grullon v. Ashcroft, 374 F.3d 137,
140 (2d Cir. 2004) (extending Ching’s holding to
cover successive petitions filed under § 2241); Whab
v. United States, 408 F.3d 116, 118–19 (2d Cir. 2005)

47a
(applying Ching’s holding where the district court
did not have the earlier- and later-filed petitions
before it simultaneously).
We followed Ching in Woods v. Carey, 525 F.3d
886 (9th Cir. 2008). Woods filed a pro se habeas
petition under 28 U.S.C. § 2254 in federal district
court. Before that petition was denied, Woods filed
another pro se habeas petition in the district court
under § 2254. The district court dismissed Woods’s
petition as second or successive.
We reversed,
writing, “[W]e follow the persuasive reasoning of the
Second Circuit.” Id. at 890. We held that the district
court “should have construed Woods’s [second-intime] pro se habeas petition as a motion to amend his
pending habeas petition,” after which the district
court would have had “the discretion to decide
whether the motion to amend should be granted.”
Id. (italicization omitted).
We reversed course in Beaty. Beaty filed a habeas
petition under § 2254 in federal district court, which
denied the petition. Beaty sought a certificate of
appealability from us. We denied a certificate of
appealability on everything except a claim as to the
voluntariness of his confession; we remanded that
claim to the district court for an evidentiary hearing.
On remand, the district court denied the claim.
Beaty requested that the district court permit him to
amend his original habeas petition “to include a
plethora of other claims.” Beaty, 554 F.3d at 782.
The district court denied permission to amend, and
Beaty appealed. While Beaty’s second appeal was
pending before us, Beaty sought to add still more
claims. We held Beaty’s additional claims were
second or successive.

48a
In a footnote, we wrote that while we had “quoted
extensively from Ching” in Woods, the facts in Woods
did not pose the same question as in Ching. Id. at
783 n.1. The question in Woods was whether a new
petition was second or successive when the first
petition was still pending in the district court. The
question in Ching was whether a new petition was
second or successive when a denial of the first
petition had been appealed and that appeal was still
pending in the court of appeal.
While not
disagreeing with the result we had reached in
Woods, we disagreed with the holding of Ching. We
wrote, “Today, we decide that Beaty cannot use
Woods to amend his petition after the district court
has ruled and proceedings have begun in this court .
. . .” Id.
The Sixth, Seventh, and Tenth Circuits have
agreed with our ruling in Beaty. See Moreland v.
Robinson, 813 F.3d 315, 324 (6th Cir. 2016); Phillips
v. United States, 668 F.3d 433, 435 (7th Cir. 2012);
Ochoa v. Sirmons, 485 F.3d 538, 540 (10th Cir.
2007). Meanwhile the Third Circuit has agreed with
Ching, similarly concluding that adjudication is final
for the purposes of § 2244(b) only once an appeal has
been finally adjudicated. See Santarelli, 929 F.3d at
104 (holding that “a subsequent habeas petition is
not ‘second or successive’ under AEDPA when a
petitioner files such a petition prior to her
exhaustion of appellate remedies with respect to the
denial of her initial habeas petition”) (emphasis
added).
We made a mistake in Beaty. First, as a matter
of ordinary language, it is hard to conclude that an
initial habeas petition has been “finally adjudicated”
when, in fact, it has not been. If a district court

49a
denies a habeas petition and the petitioner appeals,
there is no final adjudication until the appeal has
been finally adjudicated.
Second, as a practical matter, the rule followed by
the Second and Third Circuits in Ching and
Santarelli will not result in a flood of late and
procedurally abusive claims. Any new claim that is
deemed an amendment to the original petition must
satisfy the demanding relation-back requirement of
Federal Rule of Civil Procedure 15(c)(2), as
interpreted by the Supreme Court in Mayle v. Felix,
545 U.S. 644 (2005).
Third, nothing in the decisions of the Supreme
Court compels our interpretation of “final
adjudication” in Beaty.
As the Second Circuit
observed in Ching, 298 F.3d at 178, and as discussed
by the Supreme Court in Magwood, 561 U.S. at 331–
33, at least three cases decided by the Supreme
Court suggest that Ching and Santarelli got it right.
In the words of then-Judge Sotomayor, “These cases
instruct that a prior district court judgment
dismissing a habeas petition does not conclusively
establish that there has been a final adjudication of
that claim.” Ching, 298 F.3d at 178.
In Stewart v. Martinez-Villareal, 523 U.S. 637,
642–44 (1998), the Supreme Court treated a laterfiled habeas petition as part of an earlier application
where the later-filed petition was premised on a
newly ripened claim under Ford v. Wainwright, 477
U.S. 399 (1986). The Ford claim had been previously
dismissed as premature by the district court. In
Panetti v. Quarterman, 551 U.S. 930, 937, 942–45
(2007), the Court addressed a related but distinct
circumstance where a habeas petition raised a Ford
claim that had not been presented in an initial

50a
petition. The Court permitted the second petition—
even though the initial petition had been adjudicated
by the district court and Fifth Circuit Court of
Appeals, and a petition for certiorari had been denied
by the Supreme Court—because the Ford claim
would have been unripe had the petitioner sought to
present it in his first petition. In Slack v. McDaniel,
529 U.S. 473, 488 (2000), the Court declined to find a
habeas petition second or successive where the
district court had dismissed the first petition for
failure to exhaust state remedies and where the new
petition raised claims that had not been included in
the first petition.
Finally, neither Gonzalez v. Crosby, 545 U.S. 524
(2005), nor Banister v. Davis, 590 U.S. ___, 140 S. Ct.
1698 (2020), pose the barrier that today’s opinion
suggests.
In Gonzalez, the Supreme Court
considered whether a Rule 60(b) motion that adds a
claim, such as Balbuena’s, is a “‘habeas corpus
application’ as the statute uses that term.” Id. at
530 (quoting 28 U.S.C. § 2244(b)). The Court held
that if a Rule 60(b) motion advances one or more
“claims,” such as a new ground for relief, it is not a
true Rule 60(b) motion. Rather, it is “in substance” a
habeas corpus application within the meaning of §
2244(b). Id. at 531. Accordingly, Gonzalez requires
us to hold that Balbuena’s Rule 60(b) motion is, in
fact, a disguised habeas application.
The question in Banister was whether a Rule
59(e) motion is a second or successive application
within the meaning of § 2244(b). The Court held
that it is not. The Court distinguished a Rule 59(e)
motion from a Rule 60(b) motion. It wrote, in
language quoted by my colleagues, supra p. 38:

51a
In short, a Rule 60(b) motion differs from a Rule
59(e) motion in its remove from the initial habeas
proceeding. A Rule 60(b) motion—often distant in
time and scope and always giving rise to a
separate appeal—attacks an already completed
judgment. Its availability threatens serial habeas
litigation; indeed, without rules suppressing
abuse, a prisoner could bring such a motion
endlessly.
Banister, 590 U.S ___, 140 S. Ct. at 1711. Just so.
For that reason, and as the Court explained in
Gonzalez, a Rule 60(b) motion that seeks to add a
claim to a previously filed habeas application is not,
in fact, a Rule 60(b) motion. It is, instead, a
disguised habeas application subject to the bar on
“second or successive” applications. Thus, Banister
distinguishes between Rule 59(e) and Rule 60(b)
motions based on the analysis in Gonzalez. Banister
otherwise has little relevance for Balbuena’s case.
Ching, Whab, and Santarelli are consistent with
Gonzalez and Banister.
Gonzalez answers the
question whether a Rule 60(b) motion seeking to add
a claim to a habeas application is a true Rule 60(b)
motion or is a disguised habeas application. Under
Gonzalez, such a motion clearly is a habeas
application. But Gonzalez does not answer the
question whether it is a “second or successive”
habeas application under § 2244(b). See Phillips, 668
F.3d at 435 (“Under Gonzalez, the motion was an
‘application’ for collateral relief. But was it a second
application?”). That question is answered by Ching,
Whab, and Santarelli. In my view, it is their answer
to that question—not ours in Beaty—that is correct.

52a
I write separately to encourage the Supreme
Court to resolve the conflict in the circuits. I am
optimistic, if the Court takes this or a similar case,
that it will agree with the Second and Third Circuits
rather than ours.

53a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
ALEXANDER BALBUENA,

Petitioner,

Case No. 11-cv-00228-RS
(PR)
ORDER DENYING
MOTION FOR
RECONSIDERATION

v.
DAVID DAVEY,
Respondent.

INTRODUCTION
This suit is on limited remand from the Ninth
Circuit so that this Court can consider petitioner’s
motion for reconsideration under Federal Rule of
Civil Procedure 60(b). His motion is DENIED because it is in truth a request to file an unauthorized
second or successive habeas petition. This Court can
consider second or successive petitions only when
authorized to do so by the appropriate federal appellate court. Petitioner has not shown that he has received such authorization from the Ninth Circuit
Court of Appeals.

54a
BACKGROUND
In 2008, a Contra Costa County Superior Court
jury convicted petitioner of first degree murder, attempted murder, and street terrorism. Consequent
to these convictions, petitioner was sentenced to 82
years to life in state prison. On appeal, his sentence
was reduced to 72 years to life. In 2011, after he was
denied further relief on state judicial review, he filed
a federal habeas petition here. In 2012, this Court
denied his petition on the merits and entered judgment in favor of respondents. Petitioner appealed.
In 2013, the Ninth Circuit Court of Appeals appointed counsel and issued a Certificate of Appealability on the sole issue whether the state trial court
violated petitioner’s right to due process by denying
his motion to suppress his confession on grounds
that it was an involuntary product of police coercion.
Petitioner, with the assistance of counsel, later filed
a motion to stay the appellate proceedings and remand the matter to this Court to permit him to file
an amended habeas petition to include a new and
unexhausted Miranda claim. The Ninth Circuit denied the motion “without prejudice to filing a renewed motion accompanied by a written indication
that the district court is willing to entertain the motion.” (Dkt. No. 26 at 3.) Petitioner complied with
these instructions and obtained a written indication
from this Court that it would entertain further proceedings while noting that it was not making a comment on the merits. (Dkt. No. 27.) He filed in the
appellate court a renewed motion for a stay and remand, which the Ninth Circuit granted. In January
2014, the action was reopened here in district court.
(Dkt. No. 29.) In November 2014, the action was

55a
stayed at the request of petitioner so that he could
exhaust his claims. (Dkt. No. 51.) In January 2017,
the action was reopened at petitioner’s request.
(Dkt. No. 57.) Petitioner then filed a renewed motion
under Rule 60(b), which is the subject of this order.
(Dkt. No. 59.) Respondent filed an opposition to the
motion and petitioner filed a reply. (Dkt. Nos. 61
and 63.)
STANDARD OF REVIEW
Rule 60(b) provides for reconsideration where one
or more of the following is shown: (1) mistake, inadvertence, surprise or excusable neglect; (2) newly
discovered evidence that with reasonable diligence
could not have been discovered in time to move for a
new trial under Rule 59(b); (3) fraud by the adverse
party; (4) voiding of the judgment; (5) satisfaction of
the judgment; (6) any other reason justifying relief.
See Fed. R. Civ. P. 60(b); School Dist. 1J v. ACandS
Inc., 5 F.3d 1255, 1263 (9th Cir. 1993). Although
couched in broad terms, subparagraph (6) requires a
showing that the grounds justifying relief are extraordinary. See Twentieth Century-Fox Film Corp.
v. Dunnahoo, 637 F.2d 1338, 1341 (9th Cir. 1981).
AEDPA, the Anti-Terrorism and Effective Death
Penalty Act of 1996, generally bars second or successive petitions. In order to file a second or successive
petition, a federal habeas petitioner must obtain an
order from the Court of Appeals authorizing the district court to consider the petition. See 28 U.S.C. §
2244(b)(3)(A).
DISCUSSION

56a
The Court must question first whether petitioner’s filing is a Rule 60(b) motion or a request to file a
second or successive petition. “Habeas corpus petitioners cannot ‘utilize a Rule 60(b) motion to make
an end-run around the requirements of AEDPA’ or to
otherwise circumvent that statute’s restrictions on
second or successive habeas corpus petitions.” Jones
v. Ryan, 733 F.3d 825, 833 (9th Cir. 2013) (quoting
Calderon v. Thompson, 523 U.S. 538, 547 (1998)). A
legitimate Rule 60(b) motion “attacks . . . some defect
in the integrity of the federal habeas proceedings.”
Gonzalez v. Crosby, 545 U.S. 524, 530 (2005). A second or successive petition is a filing that contains one
or more claims asserted as the basis for relief from a
state court’s judgment of conviction. Id. “[A] motion
that does not attack ‘the integrity of the proceedings,
but in effect asks for a second chance to have the
merits determined favorably’ raises a claim that
takes it outside the bounds of Rule 60(b) and within
the scope of AEDPA’s limitations on second or successive habeas corpus petitions.” Jones, 733 F.3d at
834 (quoting Gonzalez, 545 U.S. at 532 n.5). Such a
motion “although labeled a Rule 60(b) motion, is in
substance a successive habeas petition and should be
treated accordingly.” Gonzalez, 545 U.S. at 531. In
sum, “new claims cannot be asserted under the format of a Rule 60(b) motion, and instead Rule 60(b) is
properly applied when there is some problem going
to the integrity of the court process on the claims
that were previously asserted.” Jones, 733 F.3d at
836 (emphasis added).
Petitioner’s Rule 60(b) motion is in truth a disguised request to file a second or successive petition,
and consequently is DENIED. None of his arguments amounts to an allegation of a “defect in the

57a
integrity of the federal habeas proceedings” that constitutes legitimate grounds for a Rule 60(b) motion.1
Gonzalez, 545 U.S. at 530. Rather, he asks to amend
his petition to include a new claim, a claim he admits
has never been raised before. His motion, then, must
be treated as request to file a second or successive
petition that has not been authorized by the Ninth
Circuit Court of Appeals.
Case law supports this conclusion. In Beaty, a
habeas petitioner appealed to the Ninth Circuit the
district court’s denial of his habeas petition. Beaty v.
Petitioner contends that the failure of state counsel to raise
his Miranda claim in the state proceedings constitutes a defect
in his federal district court proceedings sufficient to invoke relief under Rule 60(b). (Mot. for Recons., Dkt. No 59 at 26-27.)
The Court does not agree. The adequacy of his state representation is unrelated to the integrity of the proceedings here in
federal district court. Petitioner cites to cases in which the
Ninth Circuit granted relief under Rule 60(b) because of an
attorney’s negligent representation in the federal district court
proceedings. He also invokes the principle that a state attorney’s errors in state proceedings may be cause to excuse procedural default in a later related federal action. (Reply at 33.)
While this is true, the principle applies only to the issue of procedural default, as the cases petitioner cites make clear. Coleman v. Thompson, 501 U.S. 722 (1991); Martinez v. Ryan, 566
U.S. 1 (2012). His citation to Gibbs v. Legrand, 767 F.3d 879
(9th Cir. 2014) is also unavailing. In that case, the Ninth Circuit granted equitable tolling to a federal habeas petitioner
whose state counsel’s failure to inform him that the state supreme court had ruled on his petition caused his client to miss
the federal habeas filing deadline. Whether to grant equitable
tolling is a case-specific, discretionary decision taken after
weighing various factors. Here, the Court’s discretion is firmly
limited by AEDPA’s bar against second or successive petitions,
and Jones’s clear direction that habeas corpus petitioners cannot use a “60(b) motion to make an end-run around the requirements of AEDPA.” Jones, 733 F.3d at 833 (quoting
Thompson, 523 U.S. at 547).
1

58a
Schriro, 554 F.3d 780 (9th Cir. 2009). The appellate
court denied a certificate of appealability on all
claims with one exception, and remanded the action
to the district court for an evidentiary hearing on
that one claim. Id. at 782. The district court ruled
against petitioner on that claim after holding a hearing. Id. After his claim had been denied, petitioner
asked the district court for leave to amend his original petition to include new claims. Id. The court
denied the request and petitioner appealed. Id.
The district court’s denial was upheld by the
Ninth Circuit because Beaty’s request clashed with
the rule against second petitions. Petitioner had
filed his request to amend after the district court had
adjudicated his claims and after the appellate court
had rejected all but one claim. To “allow the filing of
new claims this late in the process would essentially
nullify the rules about second and successive petitions.” Id. at 783.
In making this point, the Ninth circuit specifically rejected Beaty’s assertion that another case,
Woods, on which petitioner Balbuena relies, allowed
him to amend. In Woods, a habeas petitioner filed an
amended petition before the district court had ruled
on his original petition. Woods v. Carey, 525 F.3d
886, 887-888 (9th Cir. 2008). The district court denied his original petition on the merits, and dismissed the amended petition as second or successive.
Id. On appeal, the Ninth Circuit reversed. The crucial fact was that petitioner filed his amended petition before the first petition had been adjudicated by

59a
the district court. 2 Under such circumstances, the
district court should have allowed a pro se petitioner
to amend. Id. at 889-890. The Beaty court emphasized this difference between Woods and Beaty.
Beaty, 554 F.3d at 783. Another Ninth Circuit panel
summarized the holding of Woods: “when a pro se
petitioner files a new petition in the district court
while an earlier-filed petition is still pending, the
district court must construe the new petition as a
motion to amend the pending petition rather than as
an unauthorized second or successive petition.”
Goodrum v. Busby, 824 F.3d 1188, 1192 (9th Cir.
2016) (italicization removed). 3 The instant matter
falls under Beaty, not Woods.

Petitioner contends that Woods applies because his habeas
action is not final, the Ninth Circuit not having ruled on his
petition. (Mot. of Recons., Dkt. No. 59 at 32-34.) The Court
does not agree. Woods, on its facts, applies when a district
court, not an appellate court, decision is final. Petitioner cites
to a Second Circuit case (Whab v. United States, 408 F.3d 116,
118 (2d Cir. 2005)) to support his contrary position. Such a case
is not binding on this Court.

2

Petitioner contends Goodrum supports his assertion that the
habeas proceedings are not final because the Ninth Circuit has
not ruled on the petition, and therefore this Court should allow
him to amend his petition. (Mot. for Recons., Dkt. No. 59 at 3334.) The Court does not read Goodrum this way. In that case
when the Ninth Circuit remanded the habeas action to the district court, it deliberately placed the case in a posture in which
the district court could not permissibly deny a motion to amend,
that is, before the petition was ruled on. Goodrum, 824 F.3d at
1196.
3

60a
CONCLUSION
Petitioner’s motion for reconsideration (Dkt. No.
59) is DENIED. Insofar as it is a request to file a
second or successive habeas petition, it is DENIED
as not authorized by the Ninth Circuit Court of Appeals. The Clerk shall terminate Dkt. No. 59, send a
copy of this order to the Ninth Circuit forthwith, and
close the file.
IT IS SO ORDERED.
Dated: February 5, 2018
/s/ Richard Seeborg
_______________________
RICHARD SEEBORG
United States District
Judge

61a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALEXANDER BALBUENA,
FILED
DEC 30, 2013
Molly C. Dwyer,
Clerk
U.S. Court of
Appeals
Petitioner - Appellant,
No. 12-16414
D.C. No. 3:11-cv00228-RS Northern
District of
California, San
Francisco
ORDER
v.
MARTIN D. BITER and ATTORNEY
GENERAL FOR THE STATE OF
CALIFORNIA,
Respondents - Appellees.
Before:

Peter L. Shaw, Appellate Commissioner

62a
Appellant’s renewed motion to stay appellate
proceedings and for a limited remand is granted. See
Fed. R. App. P. 12.1(b). This appeal is remanded to
the district court for the limited purpose of enabling
the district court to consider appellant's Federal Rule
of Civil Procedure 60(b) motion. Within 60 days
after the date of this order or within 7 days after the
district court’s ruling on the appellant’s motion,
whichever occurs first, appellant shall file: (1) a
report on the status of district court proceedings and
motion for appropriate relief; or (2) the opening brief.
The filing of the opening brief or the failure to file a
report will terminate the limited remand.
If the opening brief is filed, the answering and
optional reply briefs shall be filed in accordance with
the time limits set forth in Federal Rule of Appellate
Procedure 31(a).

63a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALEXANDER BALBUENA,
FILED
MAY 23, 2013
Molly C. Dwyer,
Clerk
U.S. Court of
Appeals
Petitioner - Appellant,
No. 12-16414
D.C. No. 3:11-cv00228-RS Northern
District of
California, San
Francisco
ORDER
v.
MARTIN D. BITER and ATTORNEY
GENERAL FOR THE STATE OF
CALIFORNIA,
Respondents - Appellees.

64a
Before:
es.

SILVERMAN and GRABER, Circuit Judg-

The request for a certificate of appealability is
granted with respect to the following issue: whether
the trial court violated appellant’s right to due
process by denying his motion to suppress his
confession on the ground that it was an involuntary
product of police coercion. See 28 U.S.C. § 2253(c)(3);
see also 9th Cir. R. 22-1(e).
Appellant’s motion for in forma pauperis status is
granted. The Clerk shall change the docket to reflect
appellant’s in forma pauperis status.
The court hereby appoints counsel for appellant
for purposes of this appeal.
Counsel will be
appointed by separate order. If appellant does not
wish to have appointed counsel, appellant shall file a
motion asking to proceed pro se within 14 days of the
date of this order.
The Clerk shall electronically serve this order on
the appointing authority for the Northern District of
California, who will locate appointed counsel. The
appointing authority shall send notification of the
name, address, and telephone number of appointed
counsel to the Clerk of this court at
counselappointments@ca9.uscourts.gov within 14
days of locating counsel.
The opening brief is due August 5, 2013; the
answering brief is due September 4, 2013; the
optional reply brief is due within 14 days after
service of the answering brief.
If Martin D. Biter is no longer the appropriate
appellee in this case, counsel for appellee shall notify
this court by letter of the appropriate substitute

65a
party within 21 days of the filing date of this order.
See
Fed.
R.
App.
P.
43(c)

66a
*E-Filed 5/25/12*
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
ALEXANDER BALBUENA,
Petitioner,
No. C 11-0228 RS (PR)
ORDER DENYING
PETITION FOR
WRIT OF HABEAS
CORPUS
v.
MARTIN BITER, Warden, and THE
CALIFORNIA ATTORNEY
GENERAL,
Respondents.
_______________________________
INTRODUCTION
This is a federal habeas corpus action filed by a
pro se state prisoner pursuant to 28 U.S.C. § 2254 in
order to challenge his state convictions. For the
reasons set forth below, the petition is DENIED.
BACKGROUND

67a
In 2008, a Contra Costa County Superior Court
jury found petitioner, a 16 year-old who was tried as
an adult, guilty of first degree murder, attempted
murder, and street terrorism. Evidence presented at
trial shows that in 2006 petitioner and coconspirators shot and killed Jose Segura, an MS13
gang member, in revenge for Jose’s killing of Gizmo,
petitioner’s friend and fellow RST 1 gang member,
earlier that day.2 Petitioner was sentenced to a term
of eighty-two years-to-life in state prison, a sentence
reduced on appeal to seventy-two years-to-life.
Other than this sentence reduction, petitioner was
denied relief on state judicial review. This federal
habeas petition followed. As grounds for federal
habeas relief, petitioner claims: (1) the trial court
violated his right to due process by failing to exclude
his coerced confession; 3 (2) the trial court failed to
give proper jury instructions; 4 (3) defense counsel
rendered ineffective assistance by failing to object to
expert testimony; and (4) the trial court violated his

1

sc. Richmond Sur Trece. (Ans., Ex. 8 at 6.)

Petitioner shot at Segura while he sat in his car with Oralia
Giron, the mother of Segura’s children, a three-year-old
daughter and three-month-old son, who were also in the car
at the time of the shooting. Oralia was wounded by gunfire, but
the children were not. (Ans., Ex. 8 at

2

The Order to Show Cause characterized petitioner’s claim as
an alleged violation of the Fifth Amendment’s right against
self-incrimination (Docket No. 3), but it is more commonly
characterized as a due process claim.
3

4

This is a consolidation of Claims 2 and 5 listed in the petition.

68a
due process right to personal presence at all critical
stages of the criminal proceeding.
STANDARD OF REVIEW
This court may entertain a petition for writ of
habeas corpus “in behalf of a person in custody
pursuant to the judgment of a State court only on the
ground that he is in custody in violation of the
Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a). The petition may not
be granted with respect to any claim that was
adjudicated on the merits in state court unless the
state court’s adjudication of the claim: “(1) resulted
in a decision that was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States; or (2) resulted in a decision that
was based on an unreasonable determination of the
facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d).
“Under the ‘contrary to’ clause, a federal habeas
court may grant the writ if the state court arrives at
a conclusion opposite to that reached by [the
Supreme] Court on a question of law or if the state
court decides a case differently than [the] Court has
on a set of materially indistinguishable facts.”
Williams (Terry) v. Taylor, 529 U.S. 362, 412–13
(2000). “Under the ‘unreasonable application’ clause,
a federal habeas court may grant the writ if the state
court identifies the correct governing legal principle
from [the] Court’s decisions but unreasonably applies
that principle to the facts of the prisoner’s case.” Id.
at 413. “[A] federal habeas court may not issue the
writ simply because that court concludes in its

69a
independent judgment that the relevant state-court
decision applied clearly established federal law
erroneously or incorrectly. Rather, that application
must also be unreasonable.” Id. at 411. A federal
habeas court making the “unreasonable application”
inquiry should ask whether the state court’s
application of clearly established federal law was
“objectively unreasonable.” Id. at 409.
DISCUSSION
I. Admission of Confession
Petitioner claims the trial court violated his right
to due process by failing to exclude his coerced
confession. (Pet. at 6(a).) He contends the detectives
who interrogated him after his arrest elicited his
confession by offering leniency in his sentence in
exchange for honesty, including directing petitioner
as to what story would be viewed as honest. (Id. at
6(b)–(e).)
Specifically, petitioner maintains the
detectives gave him a “very clear impression” that if
they believed he was “‘honest’ and told the ‘truth,’ he
would not get ‘twenty-five to life or life without’ and
‘die in prison,’ but would instead see his baby ‘in a
few years.’” (Id. at 6(c).)
The state appellate court largely disagreed with
petitioner’s interpretation, and determined that
several of the interrogators’ statements were
permissible:
Several of the passages [petitioner] cites involve
general exhortations for [petitioner] to tell the
truth, sometimes combined with [the] suggestion
that this might allow the officers to “help” him[,

70a
such as]: “This is where it’s important for you to
be honest with us so if there is some way to help
yourself out this is the time to do it”; “Be honest.
This is the only time we can help you out man” . .
. These statements by the detectives did not
promise any specific benefit to [petitioner], but
only such benefits as “flow[] naturally from a
truthful and honest course of conduct,” which is
permissible. Encouraging a suspect to tell the
truth by suggesting this will be to his or her
advantage is permissible.
(Ans., Ex. 8 at 21) (internal citation omitted).
The state appellate court determined that the
police did make some improper statements,
specifically offers of leniency in exchange for honesty,
e.g., “the detectives told [petitioner] he would be
tried as an adult and would soon be “fighting for [his]
life,” that he faced “twenty-five to life,” and that if he
did not show remorse, he would be “looking at . . .
[¶][t]wenty-five to life or life without.” (Ans., Ex. 8 at
22.)
Yet, the state court concluded that such
improper statements did not render the confession
involuntary because (1) petitioner made critical
admissions regarding the shooting “before improper
tactics were employed,” (2) the totality of the
circumstances show that the crucial admissions were
“voluntary and not coerced,” the videotape showing
that police interrogation “was not overtly harsh or
threatening,” and (3) any error was harmless:
As explained, the crucial admissions that
[petitioner] shot at the front window of the car
with a .32 caliber were admissible. And even
aside from [petitioner’s] confession, the evidence
against him was very strong.
According to

71a
[Detective] Goldberg’s description of [the
statements of K.L., a witness to the shooting], 5
she saw [petitioner] get a gun from a van and
[petitioner’s coconspirator] Jujakas get a gun
from a Chevy Tahoe, saw the van, [petitioner] and
Jujakas leave the area, and minutes later heard
nine gunshots. She then saw [petitioner] and
Jujakas running back to the house, Jujakas
getting into a vehicle and [petitioner] entering the
house and apparently attempting to get rid of a
gun. Later in the day, [petitioner] told her he had
shot the victim in the forehead. In the taped
interview that was played for the jury, K.L. told
the police she saw [petitioner] get into a car that
drove toward the scene of the shooting while
Jujakas ran toward it with a gun, and after
hearing the gun shots, saw [petitioner] return to
the house and attempt to put what she believed to
be a gun under the couch, then run and jump into
the black Tahoe that Jujakas had already gotten

K.L, a fifteen-year-old female, had some connection with
petitioner. When the police came to arrest petitioner, he was
lying in bed with his girlfriend and with a child who was K.L.’s
son. (Ans, Ex. 8 at 8.) Also, she rented a room from Juan
Herrera (aka Willow) who was one of the shooters. (Id. at 5, 10
& 11.)
5

72a
into. Later, [petitioner] told her he shot the
victim in the forehead.6
(Ans., Ex. 8 at 21–26.)
Involuntary confessions in state criminal cases
are inadmissible under the Fourteenth Amendment.
Blackburn v. Alabama, 361 U.S. 199, 207 (1960). A
court on direct review is required to determine, in
light of the totality of the circumstances, “whether a
confession [was] made freely, voluntarily and
without compulsion or inducement of any sort.”
Withrow v. Williams, 507 U.S. 680, 689 (1993)
(internal quotation marks and citation omitted). A
federal habeas court must review de novo the state
court’s finding that a confession was voluntarily
given. Derrick v. Peterson, 924 F.2d 813, 818 (9th
Cir. 1990). But a state court’s subsidiary factual
conclusions are entitled to the presumption of
correctness. Rupe v. Wood, 93 F.3d 1434, 1444 (9th
Cir. 1996) (deferring to state appellate court’s
conclusion that challenged statement did not
constitute threat or promise).
“[C]oercive police activity is a necessary predicate
to the finding that a confession is not ‘voluntary’
within the meaning of the Due Process Clause.”
Colorado v. Connelly, 479 U.S. 157, 167 (1986). The
At trial, K.L. recanted her statements inculpating petitioner.
The state appellate court found her recantation implausible:
“K.L. testified that she did not know where [petitioner] lived
and that she identified a random house when the police asked
her to show them. Yet when the police went to precisely the
apartment K.L. pointed out, they found not only [petitioner] but
also K.L.’s own child. There is little chance the jury could have
concluded K.L.’s trial testimony, rather than her prior
statements to police, was truthful.” (Ans, Ex. 8 at 25–26.)

6

73a
interrogation techniques of the officer must be “the
kind of misbehavior that so shocks the sensibilities of
civilized society as to warrant a federal intrusion into
the criminal processes of the States.” Moran v.
Burbine, 475 U.S. 412, 433–34 (1986). Generally
encouraging a petitioner to tell the truth does not
amount to police coercion. Amaya-Ruiz v. Stewart,
121 F.3d 486, 494 (9th Cir. 1997). Police deception
alone “does not render [a] confession involuntary,”
United States v. Miller, 984 F.2d 1028, 1031 (9th Cir.
1993), nor is it coercive to recite potential penalties
or sentences, including the potential penalties for
lying to the interviewer, United States v. Haswood,
350 F.3d 1024, 1029 (9th Cir. 2003).
The suspect’s age may be taken into account in
determining whether a confession was voluntary.
Doody v. Ryan, 649 F.3d 986, 1008 (9th Cir. 2011)
(en banc). Even in the case of a juvenile, indicating
that a cooperative attitude would be to the benefit of
an accused does not render a confession involuntary
unless such remarks rise to the level of being
“threatening or coercive.” Juan H. v. Allen, 408 F.3d
1262, 1273 (9th Cir. 2005) (quoting Fare v. Michael
C., 442 U.S. 707, 727 (1979)). Again, the pivotal
question in cases involving psychological coercion, “is
whether [, in light of the totality of the
circumstances,] the defendant’s will was overborne
when the defendant confessed.” United States v.
Miller, 984 F.2d 1028, 1031 (9th Cir.1993).
Petitioner has not shown that his confession was
involuntary. After a careful review of the videotape
of Detectives Goldberg and Pate interrogating
petitioner (Ans., Ex. 11), this Court agrees with the
state trial court’s finding that the totality of the
circumstances do not show coercive interrogation

74a
tactics, but instead indicate a “[r]emarkably . . . nonthreatening atmosphere for a police interrogation.”
(Ans., Ex. 3, Vol. 1 at 147.) Although petitioner was
a juvenile at the time of the interrogation, the trial
court found he was “relatively mature for his age,”
“was in strong degree of control of his own emotions
and the conversation occurring,” and there was no
indication “he felt intimidated or afraid of the
officers, either physically or psychologically.” (Id. at
144.) To the extent petitioner relies on these general
assertions of encouragement, his claim must fail.
Even where the detectives did link truthfulness
with a specific sentence, 7 petitioner has not shown
that such an interrogation tactic was so coercive that
it caused his will to be overborne. First, it is not
coercive to recite potential penalties or sentences,
including the potential penalties for lying to the
interviewer. Haswood, 350 F.3d at 1029. Second,
though the police lied to petitioner about some of the
evidence they had (Ans., Ex. 8 at 9 & 18–19), such
deceptions do not render the confession involuntary
either when taken on their own or seen in the
totality of the circumstances. Third, even assuming
such statements were improper, there is no basis for
(See, e.g., Ans., Ex. 1, Vol. 1 at 37 (“You need to get out in
front of this case by saying look detectives, this is what
happened[,] . . . all of it or nothing my friend, otherwise . . .
[you’re] looking at . . . [t]wenty-five to life or life without. . . . It’s
gonna be one of those two different things.”)). Although
petitioner claims the detectives actually linked his cooperation
with being able to see his baby “in a few years” (Pet. at 6(c)), the
state appellate court properly agreed with the trial court’s
characterization that the detectives were “‘indicating life
without possibility of parole without cooperation, as opposed to
25 to life with cooperation,’” (Ex. 8 at 23 n.8).

7

75a
concluding that the confession was involuntary
unless there is a causal relation between the police
misconduct and the confession. Connelly, 479 U.S. at
164. As the state appellate court noted, several
critical admissions were made before any improper
tactics were employed, including his statements that
he was in front of the car, that he had the .32 caliber
gun, and that he shot three or four rounds at the
front window of the car. (Ans., Ex. 8 at 22–23.) For
this same reason, petitioner has not shown how any
potentially involuntary admissions following these
voluntary statements had a “substantial and
injurious effect or influence in determining the jury’s
verdict.” Brecht v. Abrahamson, 507 U.S. 619, 637
(1993). Accordingly, petitioner’s claim is DENIED.
II.

Failure to Give Instructions
A.

“Caution” Instruction

Petitioner claims the trial court violated his
rights to due process and to present a defense by
instructing the jury it should view unrecorded
statements with caution.8 (Pet. at 6(e).) Petitioner
maintains this instruction left the jury with the
impression that they need not view recorded
statements with the same caution. 9 (Id. at 6(h).)
Petitioner argues this presents a unique concern
given the defense depended on convincing the jury
References to unrecorded statements pertain to evidence that
petitioner told K.L. he shot Jose Segura.

8

References to recorded statements pertain to petitioner’s
videotaped confession.

9

76a
that his recorded confession was involuntary and
should be viewed with caution. (Id. at 6(h).)
The state appellate court rejected petitioner’s
claim because:
For the jurors to have inferred from the
challenged instruction that they were not
permitted to view recorded admissions and
confessions with caution, they would have had to
believe that the trial court permitted the defense
to present a theory of the case that was entirely
irrelevant.
Moreover, the prosecutor never asked the jury to
draw the inference [petitioner] suggests . . .
[Though] [h]e did argue that the jury should
believe [petitioner’s] confession to the police, for
reasons including that “people are not likely to
say something bad about themselves unless it’s
true,” that [petitioner] gave many details about
the shooting that he would only have known by
being there, and that the confession was
corroborated by other evidence. It was never
suggested that the confession should be taken as
truth because it was recorded.
(Ans., Ex. 8 at 29–31) (footnote omitted).
A state trial court’s failure to give an instruction
does not alone raise a ground cognizable in a federal
habeas corpus proceeding. See Dunckhurst v. Deeds,
859 F.2d 110, 114 (9th Cir. 1988). The error must so
infect the trial that the defendant was deprived of
the fair trial guaranteed by the Fourteenth
Amendment. Id. Furthermore, the omission of an
instruction is less likely to be prejudicial than a
misstatement of the law. Walker v. Endell, 850 F.2d

77a
470, 475 (9th Cir. 1987) (citing Henderson v. Kibbe,
431 U.S. 145, 154 (1977)). Thus, a petitioner whose
claim involves a failure to give a particular
instruction, as opposed to an instruction that
misstated the law, bears an “especially heavy
burden.” Villafuerte v. Stewart, 111 F.3d 616, 624
(9th Cir. 1997) (quoting Henderson, 431 U.S. at 155).
Petitioner’s claim is without merit. First, he
concedes that normally a cautionary instruction
should only be given when the jury is presented with
an unrecorded admission or confession. (Pet. at
6(g).) Thus, there is no dispute that the trial court
correctly stated the law in its jury instruction.
Second, as the state appellate court noted, the
purpose of a cautionary instruction is to assist the
jury in determining whether the statement was
actually made (Ans., Ex. 8 at 27), not whether the
jury should believe the statement was true. Because
petitioner’s confession was recorded, there is no
question that the recorded statement was in fact
made. Third, the defense was still able to present its
theory that petitioner’s recorded confession was a
product of coercion, involuntarily made, and
although spoken, was unreliable and should not be
believed. (See, e.g., Ans., Ex. 3, Vol. 3 at 624–31, 638,
642, 648–49.) The fact that a cautionary instruction
was not given as to petitioner’s recorded statements
did not alter the jury’s ability to evaluate whether
petitioner made a false confession. Indeed, the
prosecutor never asked the jury to view petitioner’s
recorded confession as true simply because it was
recorded.
Instead, the prosecutor argued the
confession was reliable because petitioner gave many
details about the shooting that he would have known
only by being at the incident, and the confession was

78a
substantially corroborated by other evidence. (See,
e.g., id. at 591–602.) Based on the above reasoning,
the failure to instruct the jury to view recorded
statements with caution did not deprive petitioner of
a fair trial.
Accordingly, petitioner’s claim is
DENIED.
B.

Lesser-included Enhancement

Petitioner claims the trial court violated his right
to a jury trial by giving the jury written instructions
pursuant to California Penal Code § 12022.53(c) on
the enhancement for personal discharge of a firearm
in the commission of the murder and attempted
murder counts while failing to give written
instructions pursuant to § 12022.53(b) on the lesserincluded enhancement for personal use (without
discharge) of a firearm. (Pet. at 6(q)–r.) The state
appellate court rejected petitioner’s claim, concluding
that California trial courts do not have a sua sponte
duty to instruct on lesser-included enhancements.
(Ans., Ex. 8 at 44.)
Petitioner’s claim is without merit. First, he has
not shown that he has a federal constitutional right
to have the jury instructed on a lesser-included
sentencing enhancement. It is clear the failure of a
state trial court to instruct on lesser-included
offenses in a non-capital case does not present a
federal constitutional claim. See Solis v. Garcia, 219
F.3d 922, 929 (9th Cir. 2000). 10 However, “the
Although Solis speaks only to a petitioner’s right to a jury
instruction of a criminal offense, if Solis holds there is no
constitutional right to an instruction on a lesser-included
offense, which relates to the substantive elements of a crime, it
is reasonable to assume there is also no constitutional right to

10

79a
defendant’s right to adequate jury instructions on his
or her theory of the case might, in some cases,
constitute an exception to the general rule.” Id. at
929 (citation omitted). Solis suggests there must be
substantial evidence to warrant petitioner’s desired
instruction. See id. at 929–30. Petitioner has not
shown in his petition that his theory of the case
constituted an exception to the general rule.
Second, that the jury did not receive the
sentencing provision under § 12022.53(b), a standard
for the substantive offenses of murder and attempted
murder consistent with that which the jury was
properly instructed, does not raise the possibility
that the jury’s verdict would have been different.
This is particularly so given the fact that a “not true”
finding on the discharge allegation under section
12022.53(c) could also reflect a determination that
petitioner had a firearm but did not discharge it,
despite petitioner’s belief otherwise, (see Pet. at 6r).
Accordingly, petitioner’s claim is DENIED.
III.

Assistance of Counsel

Petitioner claims his defense counsel rendered
ineffective assistance by failing to object to expert
testimony that petitioner not only committed the
shooting, but committed it with the specific intent to
promote the RST gang. (Pet. at 6(h).) At trial, gang
expert Detective Shawn Pate testified that a day
before the instant shooting, members of the MS13
gang shot and killed Gizmo, a rival RST gang
an instruction on a lesser-included enhancement, which only
relates to sentencing.

80a
member. (Ans., Ex. 3, Vol. 2 at 382–83.) Pate opined
that petitioner and other RST gang members
committed a “retaliatory shooting” against the
victims, whose family members were MS13 gang
members. (Id. at 382–83.) The state appellate court
rejected petitioner’s ineffective assistance of counsel
claim because Pate’s testimony “concerned the
actions and motivations of gang members in general”
rather than petitioner’s “subjective intent with
respect to the shooting.” (Id., Ex. 8 at 34.) The jury
“still had to determine that [petitioner] participated
in the shooting and subjectively acted to promote
RST.” (Id. at 35.)
Claims of ineffective assistance of counsel are
examined under Strickland v. Washington, 466 U.S.
668 (1984). In order to prevail on a claim of
ineffectiveness of counsel, a petitioner first must
establish such counsel’s performance was deficient,
i.e., that it fell below an “objective standard of
reasonableness” under prevailing professional
norms. Id. at 687–88. Second, the petitioner must
establish prejudice resulting from counsel’s deficient
performance, i.e., that “there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Id. at 694. “A reasonable probability is a
probability sufficient to undermine confidence in the
outcome.” Id. Where the petitioner is challenging
the conviction, the appropriate question is “whether
there is a reasonable probability that, absent the
errors, the factfinder would have had a reasonable
doubt respecting guilt.” Id. at 695. It is unnecessary
for a federal habeas court considering an ineffective
assistance claim to address the prejudice prong of
the Strickland test “if the petitioner cannot even

81a
establish incompetence under the first prong.”
Siriprongs v. Calderon, 133 F.3d 732, 737 (9th Cir.
1998).
Applying these principles to the instant matter,
the Court concludes petitioner is not entitled to
habeas relief on this claim.
Petitioner’s
characterization of Pate’s testimony — that Pate
opined petitioner committed the shootings with the
specific intent to promote the RST gang (Pet. at 6(h))
— is not supported by the record.
The state
appellate court noted that in California, a party may
offer expert testimony to show the motivation for a
particular crime, including retaliation, and whether
and how the crime was committed to benefit or
promote a gang. (Ans., Ex. 8 at 33.) Here, Pate’s
testimony concerned only the actions and
motivations of RST gang members in general.
Pate, however, does mention that he believes
petitioner is an RST because he “gets engaged in a
retaliatory shooting for a hard core RST who is killed
allegedly by an [MS13].” (Ans., Ex. 3, Vol. 2 at 377–
78.)11 Pate’s statement, however, did not purport to
show petitioner in fact committed the offense or had
the requisite state of mind. The prosecutor still had
to prove these facts through other evidence. Thus, it
is reasonable to assume that any objection to Pate’s
testimony in this respect would have been denied. It
Other factors that contributed to Pate’s opinion included that
petitioner lived in a known RST apartment within a
neighborhood called the “RST compound,” that he is able to
socialize with others in the same area, specifically the “Green
Store” which only RST members can occupy to sell narcotics,
and that petitioner admitted he was an RST gang member.
(Ans., Ex. 3, Vol. 2 at 376–78.)
11

82a
is both reasonable and not prejudicial for an attorney
to forego a meritless objection. See Juan H., 408
F.3d at 1273. Accordingly, petitioner’s claim is
DENIED.
IV.

Personal Presence

Petitioner claims the trial court violated his right
to be present at all critical stages of a criminal trial.
(Pet. at 6(l).) While the jury was deliberating, the
court held a jurisdictional hearing to determine
whether petitioner was a minor at least fourteen
years of age at the time the offenses were committed,
which would subject him to prosecution in superior
court rather than juvenile court pursuant to
California Welfare and Institutions Code §
707(d)(2)(A). (Ans., Ex. 4, Vol. 4 at 679.) Defense
counsel expressly waived petitioner’s presence for
purposes of this inquiry. (Id. at 679–80.) Petitioner
contends the hearing was evidentiary in nature,
requiring proof of petitioner’s age and fitness to be
tried as an adult, and therefore his presence was
necessary to the extent that petitioner could have
refuted or resolved any conflicting evidence of his
age. (Pet. at 6(n).)
The state appellate court rejected petitioner’s
claim because there was substantial proof that
petitioner was over the age of 14, no matter how the
evidence was viewed:
The magistrate at the preliminary hearing had
found [petitioner] to be “at least 14 years of age”
at the time of the offenses and, specifically, “at
least 16 years of age.” No question on this point
was ever raised at trial and [petitioner] suggests

83a
nothing he could have offered to demonstrate he
was not over 14 years old. As the only conflict in
the evidence [petitioner] points to is whether he
was 15 or 16 years old, and the allegation was
supported by uncontradicted proof he was over 14
years old, he has shown no prejudice from having
the court determine the truth of the Welfare and
Institutions Code section 707, subdivision
(d)(2)(A) allegation in his absence. There is no
reasonable possibility the outcome of the hearing
would have been different if [petitioner] had been
present.
(Ans., Ex. 8 at 38–39) (footnote omitted).
Due process protects a defendant’s right to be
present “at any stage of the criminal proceeding that
is critical to its outcome if his presence would
contribute to the fairness of the procedure.”
Kentucky v. Stincer, 482 U.S. 730, 745 (1987) (en
banc). However, the Supreme Court has never held
that exclusion of a defendant from a critical stage of
the trial is a structural error. Campbell v. Rice, 408
F.3d 1166, 1172 (9th Cir. 2005). The right to be
present at all critical stages, like most constitutional
rights, is subject to harmless error analysis “‘unless
the deprivation, by its very nature, cannot be
harmless.” Id. (quoting Rushen v. Spain, 464 U.S.
114, 117 n.2 (1983) (per curiam)).
Any error resulting from petitioner’s exclusion
from the jurisdictional hearing was not a structural
error but was, instead, trial error subject to harmless
error review under Brecht, 507 U.S. at 637.
Petitioner has not demonstrated that he was
adversely affected by his exclusion from the hearing.
As the state appellate court noted, the only conflict

84a
in the evidence was whether petitioner was fifteen or
sixteen years old. (Ans., Ex. 8 at 39.) Thus, it was
reasonable to conclude that petitioner was at least
fourteen years old. Because this satisfies the age
element under California Welfare and Institutions
Code § 707(d)(2)(A), any potential error was
harmless.
Accordingly, petitioner’s claim is
DENIED.
CONCLUSION
The state court’s adjudication of the claim did not
result in a decision that was contrary to, or involved
an unreasonable application of, clearly established
federal law, nor did it result in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceeding. Accordingly, the petition is DENIED. A
certificate of appealability will not issue. Reasonable
jurists would not “find the district court’s assessment
of the constitutional claims debatable or wrong.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Petitioner may seek a certificate of appealability
from the Court of Appeals. The Clerk shall enter
judgment in favor of respondents and close the file.
IT IS SO ORDERED.
DATED: May 25, 2012
/s/ Richard Seeborg
________________________
Richard Seeborg

85a
United States District
Judge

